<html>
<title> - U.S. MAYORS SPEAK OUT: ADDRESSING DISASTERS IN CITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
         U.S. MAYORS SPEAK OUT: ADDRESSING DISASTERS IN CITIES

=======================================================================


                                (111-94)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 4, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
55-274                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)




 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
RUSS CARNAHAN, Missouri              SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
MICHAEL A. ARCURI, New York          MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
DONNA F. EDWARDS, Maryland           ANH ``JOSEPH'' CAO, Louisiana
THOMAS S. P. PERRIELLO, Virginia,    PETE OLSON, Texas
Vice Chair                           VACANCY
JAMES L. OBERSTAR, Minnesota
VACANCY
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Berginnis, Chad, Senior Specialist, Hazard Mitigation and 
  Floodplain Management, Michael Baker Corporation, testifying on 
  Behalf of Association of State Floodplain Managers.............    29
Cownie, Franklin, Mayor, City of Des Moines, Iowa................     6
Duffy, Robert J., Mayor, City of Rochester, New York.............     6
Gispert, Larry, Past President, International Association of 
  Emergency Managers.............................................    29
Maxwell, David, President, National Emergency Management 
  Association....................................................    29
Nagin, C. Ray, Mayor, City of New Orleans, Louisiana.............     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Norton, Hon. Eleanor Holmes, of the District of Columbia.........    47
Oberstar, Hon. James L., of Minnesota............................    49

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Berginnis, Chad..................................................    52
Cownie, Franklin.................................................    65
Duffy, Robert J..................................................    72
Gispert, Larry...................................................    77
Maxwell, David...................................................    82
Nagin, C. Ray....................................................    88

                       SUBMISSIONS FOR THE RECORD

Cownie, Franklin, Mayor, City of Des Moines, Iowa, Duffy, Robert 
  J., Mayor, City of Rochester, New York, Nagin, C. Ray, Mayor, 
  City of New Orleans, Louisiana, response to questions from the 
  Subcommittee...................................................    71
Maxwell, David, President, National Emergency Management 
  Association, responses to questions from the Subcommittee......    87
Nagin, C. Ray, Mayor, City of New Orleans, Louisiana:............
      Report of the Stafford Act Reform Task Force...............   100
      Responses to questions from the Subcommittee...............   117

[GRAPHIC] [TIFF OMITTED] 55274.001

[GRAPHIC] [TIFF OMITTED] 55274.002

[GRAPHIC] [TIFF OMITTED] 55274.003

[GRAPHIC] [TIFF OMITTED] 55274.004

[GRAPHIC] [TIFF OMITTED] 55274.005

[GRAPHIC] [TIFF OMITTED] 55274.006

[GRAPHIC] [TIFF OMITTED] 55274.007

[GRAPHIC] [TIFF OMITTED] 55274.008

[GRAPHIC] [TIFF OMITTED] 55274.009

[GRAPHIC] [TIFF OMITTED] 55274.010

[GRAPHIC] [TIFF OMITTED] 55274.011

[GRAPHIC] [TIFF OMITTED] 55274.012

[GRAPHIC] [TIFF OMITTED] 55274.013


         U.S. MAYORS SPEAK OUT: ADDRESSING DISASTERS IN CITIES

                              ----------                              


                        Thursday, March 4, 2010

                  House of Representatives,
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:09 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. We apologize for the delay, but we are pleased 
to say good afternoon and welcome to all, especially to our 
witnesses, and particularly our three mayors, to today's 
hearing which will address the recent report of the United 
States Conference of Mayors, a Stafford Act Reform Task Force, 
and disasters. And we will be speaking about disasters in 
cities in particular. This report from mayors who have on-the-
ground experience with emergencies and disasters is an 
important contribution to the Subcommittee's ongoing work to 
improve the Robert G. Stafford Disaster Relief and Emergency 
Assistance Act.
    We are pleased that the United States Conference of Mayors 
convened its task force of 24 mayors to review and make 
recommendations on the Stafford Act, as well as on the Federal 
Emergency Management Agency's programs, regulations and 
policies. Today we will receive testimony from three of the 
mayors who are members of the task force, as well as from 
professional emergency managers and floodplain managers 
regarding the task force recommendations.
    The task force report is comprehensive, covering a number 
of areas, including catastrophic disasters, hazard mitigation, 
individual and household assistance, insurance, emergency 
preparedness and response, and FEMA administration. Many of the 
recommendations in the report have wide support and agreement, 
and some are already in legislation or on the way to the floor 
with legislation. However, in other cases, as we will hear 
today, some of the recommendations may require further analysis 
and discussion.
    Not all of the report's recommendations require 
legislation, I am pleased to say. Many could be implemented by 
FEMA administratively through regulations or changes in 
policies. And the Subcommittee has always encouraged much 
greater use of FEMA's considerable administrative authority, 
and also say for the record that we regret very much that often 
the Subcommittee has had to enact legislation that we did not 
believe was required because FEMA did not use the considerable 
authority that it already has. And we will be watching 
attentively to see whether FEMA is quick to dig into these 
recommendations to pursue them on its own to the greatest 
extent possible.
    We recognize that there are some cases in which law will be 
necessary, and we are prepared to consider those changes. The 
Committee already has addressed some of the recommendations in 
legislation, including H.R. 3377, the Disaster Response 
Recovery and Mitigation Enforcement Act of 2009, and other 
legislation that I am pleased to be a co sponsor of, along with 
Chairman Oberstar and Ranking Members Mica and Diaz-Balart. 
H.R. 3377 reinstates the Mortgage and Rental Assistance program 
and contains a provision to provide additional mitigation 
assistance to States that adopt building codes. And if you have 
watched what has happened in Haiti and in Chile--I don't know 
why I want to say Costa Rica and Chile--you will understand the 
importance of the assistance we will give to jurisdictions that 
adopt their own building codes.
    Both of these ideas are recommended by the task force 
report. H.R. 3377 has already been ordered reported favorably 
to the House, and I expect it to be taken up by the full House 
soon.
    I am pleased to recognize the mayors who are testifying on 
behalf of the U.S. Conference of Mayors, including Mayor 
Franklin Cownie of Des Moines, Iowa, and Mayor Robert Duffy of 
Rochester, New York.
    If I may, I shall say a special word about Mayor Ray Nagin, 
who also is testifying and has testified before the 
Subcommittee a number of times. This is likely the last time he 
will testify as mayor of New Orleans. We commend Mayor Nagin 
for leading his city through the greatest natural disaster to 
strike our Nation and for chairing the task force to help 
ensure that cities across the Nation can learn from his 
experience and the experience of the citizens of his city.
    We look forward to hearing the testimony of all of today's 
witnesses about how we can improve how our Nation addresses 
disasters in cities.
    Ms. Norton. Why don't we proceed with the mayors in the 
order in which they have seated themselves, or maybe the 
Chairman would like to go first.
    Mayor Nagin, would you like to go first?
    Mr. Nagin. Yes, Madam Chair, I would.
    Ms. Norton. Well, I am sorry, there is a Ranking Member 
here today, even though Mr. Diaz-Balart is not here. Well, he 
is here almost. And if he would like to offer an opening 
statement or--he will offer his usual opening statement.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman. I 
apologize for being a couple of minutes late.
    I want to thank you, Madam Chairwoman, for holding this 
hearing today on addressing disasters in cities and the 
recommendations of the U.S. Conference of Mayors.
    In January, as everybody knows, the U.S. Conference of 
Mayors Stafford Act Reform Task Force issued its 
recommendations on how we can better improve, and prepare 
really, and mitigate against and respond to future disasters. 
The task force began its work in September and included 
representatives from a number of cities, including two in 
Florida, I might add, and we are very proud of that. 
Unfortunately it is because Florida has too much experience in 
these issues, not something that we have done by choice, 
mayors, as you know. The Chair of this task force is Mayor 
Nagin of New Orleans, and we thank him for being here today.
    As a Member from the State of Florida, a State that has 
seen and continues to see its share of disasters, I 
particularly appreciate the experience and work that the task 
force members put into developing their recommendations.
    Look, you know, we all know that Hurricane Katrina was a 
wake-up call, a big wake-up call. It has now been nearly 5 
years since Katrina hit the Gulf Coast and devastated parts of 
Louisiana, Mississippi, Texas and Alabama. And since that time 
I think Congress has taken a number of important steps to 
strengthen FEMA and our Nation's emergency management 
capability, including, not limited to, but including, passing 
the Post-Katrina Reform Act.
    But while legislation took important steps to improve 
preparedness and response, there is obviously a lot more work 
that remains to be done. For example, all too often recovery 
following a major disaster has been slowed by red tape, 
bureaucratic red tape, and by inflexible policies in some 
cases. And the impact of this red tape is especially magnified 
following a large-scale disaster when assistance is critical to 
rebuilding local communities. And we know that that is a long 
and arduous and difficult process. In hearing after hearing we 
have received testimony about the slow and--you know, that slow 
process which communities have to try to navigate and have to 
try to figure out in many cases.
    Congressman Cao, who is sitting now as Ranking Member-- 
and, again, thank you, sir, for starting, and, again, I 
apologize to you and the Chairwoman for being a little late--
has worked tirelessly to cut through the bureaucracy and free 
up funding for the recovery in Louisiana. And I again once 
again want to publicly, as I have done before, thank him for 
his tireless efforts in trying to get that done.
    Last year Ranking Member Mica hosted two roundtables at 
Congressman Cao's request to bring together FEMA and the State 
and local representatives to try to work through some of that 
funding backlog. And last year a new arbitration process was 
established to expedite recovery funding, which really has 
freed up more funds for the rebuilding of Louisiana. But--and 
again, but it should not have to take roundtables and meetings 
and arbitration panels to cut through the bureaucratic red 
tape. Responsible changes to the Stafford Act and FEMA policies 
can go a long way to speed up the recovery of communities 
devastated after natural disasters like hurricanes.
    We understand that Administrator Fugate, as you all know, 
somebody who has vast experience, is committed to reviewing 
FEMA's policies, to examining the ways to streamline and 
improve FEMA's role in assisting State and local communities. 
For example, allowing for the mitigation reconstruction of 
damaged structures would make more sense in many cases than 
simply elevating old structures to mitigate against flooding, 
which does little to protect against wind. Again, those are 
some common sense ideas. This is just one of many examples of 
changes that can't be done administratively without requiring 
Congress to act without legislation.
    In this Congress I worked with Chairwoman Norton of the 
Subcommittee, along with Chairman Oberstar and Ranking Member 
Mica, on H.R. 3377, the Stafford Act bill, which was ordered 
reported in November. That bill includes provisions intended to 
improve preparedness and mitigation, including incentives for 
building codes, improving the Nation's public alert and warning 
system, and providing for the transfer of excess goods and 
housing units to local communities. It also includes proposals 
recommended by Congressman Cao to provide more flexibility in 
response to widespread disasters.
    As we move forward on this important piece of legislation, 
input from you all, from the mayors, is, frankly, critical. I 
know you are on the front lines of these issues. So good 
planning and response to a disaster starts with you all, right, 
at the local level, local and then State levels. And we know 
that many mayors in local communities unfortunately have 
firsthand knowledge, practical knowledge, of what may need to 
be improved and may need to be changed.
    And I say--I mean, obviously it is an experience I know 
that all of you wish you didn't have to have, but unfortunately 
you do have it, and we have had instances in the past, and we 
know that they are going to come again in the future.
    I hope that today we will be able to examine closely the 
recommendations of the U.S. Conference of Mayors to better 
inform our consideration of changes to the Stafford Act. I want 
to first, again, thank you, the witnesses, for joining us 
today. And I would be remiss without thanking once again the 
Chairwoman of this Committee for her leadership.
    Thank you, Madam Chairwoman.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart.
    Ms. Norton. Opening remarks from Mr. Cao.
    Mr. Cao. Thank you very much, Madam Chair.
    First of all, I want to extend my thanks as always to you 
and to Ranking Member Diaz-Balart for your unwavering support 
for the District and for the recovery of Orleans and Jefferson 
Parishes. I want to also extend my thanks to our witnesses 
today and look forward to a real nuts-and-bolts discussion 
about the act, which plays such a critical role in disaster 
preparedness, response and recovery.
    I appreciate the U.S. Conference of Mayors being here 
today, and, as you know, the Conference of Mayors is being led 
by my own mayor, Mayor Ray Nagin, who more than anyone knows 
the effects of disasters on a city and its population. And, 
Madam Chair, I just want to reiterate that. I also noticed that 
he has been here quite often. And since he is leaving, it makes 
me wonder whether or not he is seeking my seat.
    Mr. Nagin. You don't have to worry about that, Congressman.
    Mr. Cao. But we know it has been 4-1/2 years from one of 
the greatest disasters in the history of this Nation when 
Hurricane Katrina destroyed my district, and major institutions 
like our universities were closed for business for several 
months after the storm, and many remain closed after waiting 
years for recovery assistance. Many of our critical 
institutions like Charity Hospital and basically the entire 
health care infrastructure in the hardest-hit New Orleans East 
have never reopened. Basic services like hospital, police, fire 
and rescue, libraries and schools were wiped away by the 
floodwaters, or today they are simply empty shells of 
buildings.
    In the immediate area around New Orleans, 80 percent of the 
buildings and 50 percent of the housing stock were damaged in 
some way. This is to say nothing of the thousands who 
tragically lost their lives as the waters rose around them and 
literally engulfed them.
    This happened in the greatest Nation on Earth and stands to 
happen again if the way we think about disaster preparedness, 
response and recovery is not dramatically changed. Recovery has 
been too slow-going, and this is due in large part to the red 
tape that is at FEMA. The Stafford Act is currently set up to 
provide recovery dollars on a project-by-project basis. For the 
Gulf Coast States that were hit by the massive and widespread 
destruction of Hurricanes Katrina and Rita, this process just 
did not work.
    After talking with my constituents, Federal officials, 
local officials, including Mayor Nagin, and FEMA Administrator 
Fugate about what changes need to be made to the Stafford Act, 
I took action. So in September of last year, I introduced H.R. 
3635, the Disaster Relief and Recovery Development Act. This 
bill has the support of the entire Louisiana delegation. H.R. 
3635 was a step in the right direction so that communities hit 
by disaster never have to go through the anemic recovery that 
we had to endure in my district and along the Gulf Coast.
    As introduced, the bill would streamline operations and 
increase accountability and transparency by FEMA by calling for 
review of FEMA regulations and requiring a report to Congress 
within 18 months of enactment, requiring regular reporting to 
Congress on the status of the speed with which public 
assistance project worksheets and other contributions are being 
made for open disaster, requiring FEMA to shift to a cost-
estimate model by requiring regulations to be prepared within 6 
months of enactment.
    The bill also focuses on FEMA's role as a recovery and 
coordinating agency by formally establishing and 
preconstituting emergency recovery teams to establish the 
FEMA's dual role as both a recovery and response agency in the 
immediate aftermath of a disaster. It also seeks to establish a 
Federal Interagency Disaster Recovery Task Force with the 
purpose of ensuring Federal agencies with a role to play in 
recovery are coordinating before a disaster, and full Federal 
resources are identified to be activated at the time of a 
disaster.
    Those are some of the provisions that we seek to change in 
regards to how the Stafford Act regulates FEMA. And I am 
pleased to report that in November last year that the vast 
majority of these critical reforms were included in the 
Disaster Response Recovery and Mitigation Enhancement Act of 
2009, which was authored by this Committee's Chairman Mr. James 
Oberstar, Chairwoman Holmes Norton, Ranking Member Mica, who 
was with me at Charity Hospital in New Orleans, and Ranking 
Member Diaz-Balart. The remaining provisions the Chairman and I 
are working on for consideration. I have had the chance to 
review the proposal of the U.S. Conference of Mayors, and I am 
pleased to report that a number of the recommendations are 
reflected in my bill.
    The success of these provisions is good for the 
constituents in Louisiana's Second Congressional District 
because it represents progress and change on how FEMA does 
business. With this bill we have taken a comprehensive relook 
at the Stafford Act and the regulations that support it, and we 
have made it better.
    I am grateful for your consideration and collaboration and 
that of your staff, Madam Chairwoman and Ranking Member. They 
have been wonderful to us, and they have been very cooperative 
in trying to establish the changes we need to the Stafford Act. 
And we are still in the midst of recovery, and we are still 
many years off due to the extent of Hurricane Katrina's damage 
to my district. Many of the critical institutions like Charity 
Hospital and other health care institutions are still not 
reopened, but we are working towards a revitalization of the 
area, and through other economic means we hope to once again 
bring New Orleans back to once it was one of the greatest 
cities in this country.
    So with that I thank you very much for holding this 
hearing, and I yield back the balance of my time.
    Ms. Norton. Thank you, Mr. Cao.
    Ms. Norton. Actually I will let the mayors decide in what 
order they want to proceed. You may have your own sequences.
    Mr. Nagin. I will go first, Madam Chair, if that is okay.
    Ms. Norton. Mayor Nagin, please go ahead.

    TESTIMONY OF C. RAY NAGIN, MAYOR, CITY OF NEW ORLEANS, 
LOUISIANA; ROBERT J. DUFFY, MAYOR, CITY OF ROCHESTER, NEW YORK; 
      AND FRANKLIN COWNIE, MAYOR, CITY OF DES MOINES, IOWA

    Mr. Nagin. To Chairwoman Norton, to Ranking Member Diaz-
Balart and to my Congressman, Congressman Cao, and all the 
distinguished Members of the Subcommittee panel and guests. My 
name is C. Ray Nagin. I am the mayor of the City of New 
Orleans. I want to, first of all, thank you for this 
opportunity to speak to you today about reforming the Stafford 
Act, which as many of you have already said and are aware, is a 
Federal law that supports preparation for and response to 
disasters. It gives the President of the United States the 
power to issue disaster declarations that authorize help for 
States and local communities overwhelmed by events that have 
disrupted their normal functioning.
    Although it was written to give discretion to Federal 
administrators for tailoring a response to the need, the 
flexibility in the Stafford Act is not adequate to handle the 
widespread destruction caused by the kind of disaster that New 
Orleans faced from Hurricane Katrina and subsequent flooding--a 
catastrophic disaster. Response is too often impeded by this 
limiting piece of legislation, bureaucratic inefficiency, and 
conflicting or unclear policies and regulations.
    In New Orleans we are rebuilding following the devastation 
of Hurricane Katrina. Although problems with the Stafford Act 
and its implementation have led to major delays in our 
recovery, we are now creating a city that is even better than 
we had before. But the structure under which we have struggled 
to recover remains largely unchanged today and will continue to 
cause significant problems in future disasters.
    I want to thank you once again, Congresswoman Norton, for 
all you have done to support New Orleans since Hurricane 
Katrina and to help us better prepare the country to respond 
and recover from disasters. Many of the special one-time fixes 
that gave New Orleans relief following the 2005 storms very 
graciously began with this Subcommittee under your leadership, 
and you have been a leader in initiating positive, permanent 
changes to the Stafford Act.
    I want to also publicly thank President Obama's 
administration and other key leaders in Congress who have 
worked to improve disaster response and recovery since the 
catastrophic events in New Orleans demonstrated the needs so 
clearly.
    You know, one of my goals since this disaster has been to 
learn from it and to make sure that no other American city ever 
has to face the difficulties that we had in New Orleans. 
Because disaster response and recovery is important to every 
city, the United States Conference of Mayors asked me, along 
with some other mayors, to put together a task force to 
formulate some recommendations which you referenced earlier. We 
are 24 mayors represented on this Committee from 18 different 
states, and it was unanimously approved by the entire body of 
the USCM. I have been working with my co-chair, Sacramento 
Mayor Kevin Johnson, and with participating mayors, emergency 
managers, and other staffs from cities around the country, and 
we have outlined a set of comprehensive reforms.
    Congresswoman Norton, we are also very appreciative that 
you introduced H.R. 3377. And if you haven't heard it before, 
we support this bill; we are just hoping that it will have some 
of the modifications that we have included in our report.
    I want to really cover five key issues, and I will try to 
do those very briefly. First, the Stafford Act should provide 
for a catastrophic designation to speed up funding, 
availability, and recovery. And I know we have had some 
discussions about the different categories that are already in 
this act, but we firmly believe that some type of catastrophic 
designation would be appropriate going forward, and we can talk 
about how to define that.
    One of the thoughts we had was a multi-state designation, 
if there were an event that happened that affected multi 
States. Another thing that we talked about is if it had 
significant impact to the national economy. We think there 
should be some automatic provisions that kick in in the event 
of a catastrophic-type event.
    One of the other things we found that would help this is 
that the FEMA organization, in my experience, has been more of 
a compliance-driven organization. They are into the compliance 
with the rules, and that tends to slow things down. In a 
catastrophic event, you need a mission-driven organization that 
is clear about what they are trying to accomplish over a very 
short period of time, and we think this designation would help 
a lot.
    Second, the $5 million cap on the Community Disaster Loan 
Program must be removed. This is an area where we have had a 
one-time fix, if you will. But keep in mind that during 
Hurricane Katrina, it was catastrophic, and our economy was 
completely shut down. So in October 2006, after a year of 
lobbying, a full year of lobbying, Congress was very gracious 
in providing the city and other affected entities with the 
ability to borrow up to 50 percent of our annual revenue loss, 
but we had to go through a full year with the act basically 
saying that the maximum we could get was $5 million.
    Thirdly, the law should give grant standing to local 
jurisdictions that are CDBG Entitlement Communities so that we 
may deal directly with the Federal Government. I want to 
clarify something here. We are not talking about the immediate 
aftermath of the event-- categories A and B. We are talking 
about once the community starts to clean up debris and get the 
recovery going. That is when those grants should come directly 
to the local municipalities.
    On my fourth issue, and I have one more, and then I will be 
finished: the Hazard Mitigation Program must be adequately 
funded and streamlined. Hazard mitigation is a great concept. 
It uses probably the toughest dollars there are to spend. There 
is so many rules and regulations, and then it goes through the 
States, and they struggle to spend those dollars also. But in 
the event that happened in New Orleans, New Orleans had about 
57, almost 60 percent of the damage, and thus far we have only 
been allocated about 5 percent of the hazard mitigation dollars 
that have gone to the State. We have been awarded only $30 
million out of the $1.4 billion that was allocated. So we are 
pushing for direct funding on that.
    And then, lastly, there must be an increased support for 
communities hosting evacuees and the cities that provide direct 
assistance to disaster-affected communities. These communities 
should not be penalized for their generosity. They should 
receive 100 percent reimbursement for personnel costs and lost 
revenues incurred to help manage and implement assistance for 
evacuees. Unfortunately, during our experience, that did not 
happen.
    I want to thank you again for your focus on this important 
issue and for the commitment that you have demonstrated to our 
city. Despite all the challenges that I just mentioned, New 
Orleans is rebuilding, and we will be a stronger, smarter and 
better city than ever before. Over 80 percent of our population 
is back. Our city is growing at at least a 7-8 percent growth 
rate per year. Our unemployment is among the lowest in the 
nation because we have a tremendous amount of construction-
related activity going on in our city.
    And as I prepare to leave office and not run again for any 
public office-- Congressman Cao-- I remain as committed as I 
was just after Katrina to make certain that no other city faces 
the recovery and rebuilding difficulties that we had in New 
Orleans. It has been my honor to lead the task force on behalf 
of the U.S. Conference of Mayors. Our recommendations are based 
on actual experiences and actual frustrations in working with a 
structure that must be overhauled to better serve the American 
people. Reform of the Stafford Act is critically important to 
the future of our cities, and it must be reformed now.
    Thank you very much, Madam Chair.
    Ms. Norton. Well, thank you, Mayor Nagin, for that.
    Thank you again for your service. I recognize it probably 
was the roughest mayoral service.
    Mr. Nagin. Of all time.
    Ms. Norton. Perhaps even all time. And I note your pledge 
to Mr. Cao to leave him be, at least for you to leave him be. 
You should note that we did not swear in the witnesses.
    Mr. Nagin. So noted.
    Ms. Norton. Shall we hear from, which of you, Mayor Cownie, 
who is mayor of the City of Des Moines? Please go on, Mayor 
Cownie.
    Mr. Cownie. Thank you, Chairwoman Norton, Ranking Member 
Diaz-Balart and Members of the Subcommittee. I am Frank Cownie, 
the mayor of Des Moines, Iowa, and I am a member of the U.S. 
Conference of Mayors Committee on the Stafford Act Reform Task 
Force, chaired by Mayor Nagin, and also have enjoyed, quite 
frankly, getting to know Mayor Nagin and watched his work as 
many of us around this country did during their time of need. I 
also serve as Chair of the Mayors Metro Economies Committee. I 
am honored to have the opportunity to speak to you today.
    Under Mayor Nagin's leadership and his Vice Chair, 
Sacramento mayor Kevin Johnson, our task force did really a 
remarkable job by identifying the various Stafford Act 
provisions which caused problems for local officials trying to 
prevent, mitigate and respond to disasters, and of developing 
recommendations intended to solve some of those problems. Today 
I would like to touch on our recommendations regarding hazard 
mitigation and then talk a bit about our experiences in Des 
Moines relating to flooding, which occurred in June of 2008. 
And I might also take about 30 seconds to tell you about our 
experience in 1993.
    Hazard mitigation recommendations by our Committee. The 
hazard mitigation measures have proven to be effective in 
reducing property damage, cost of repair and replacement, and 
loss of life. FEMA's Hazard Mitigation Grant Program provides 
funding to assist communities in implementing long-term hazard 
mitigation measures as we repair or rebuild following a major 
disaster.
    A congressionally mandated study for FEMA estimated that $4 
can be saved for every dollar we invest in mitigation. More 
funding should be made available for hazard mitigation after a 
disaster, and communities that are at high risk should have 
more funding and financial incentives or hazard mitigation 
programs available to them. Additionally, the entire hazard 
mitigation grant process should be streamlined so less funding 
is lost to complex and bureaucratic administration, and more 
can be spent on the actual construction of safer structures.
    Now, quickly I will talk about our experience in Des 
Moines. In 1993, we had a--I was not in elected office at that 
time, but had the experience of going through a devastating 
flood in our city. In 2008, we had a similar experience. 
Through watching some of the trials of some of our mayors, 
including Mayor Nagin, we all learned and we knew that 
preparation certainly was necessary.
    And I will tell you that in 2008, the City of Des Moines, 
we had about 99 percent of the water that we had in 1993, but 
because of preparation and a lot of the work that we did, we 
only had 5 percent of the damage in our city. However, I will 
also tell you at the same time that 73 of the 99 counties in 
the State of Iowa in 2008 were declared national disasters and 
was ranked, some say, in the top four national disasters--
natural disasters of all time in this country, right in the 
middle of the heartland of this country. It is not a coastal 
situation. This happened as a result of flooding and heavy 
downpour and, some would say, climate change.
    In June of 2008, Des Moines was threatened with serious 
flooding. We discussed our experience in Des Moines with the 
task force, and as a result, it was recommended that disaster 
assistance funds should also be provided to reimburse costs 
associated with preventative measures. The Stafford Act prevent 
funds are provided through annual grants to assist with 
preparation in hardening of structures. Reimbursement should 
also be provided to jurisdictions that use resources to take 
urgent preventative measures to mitigate the effects of 
potential disasters which appear to be imminent threats. These 
measures, which could include precautionary evacuations and 
target hardening of facilities or levees, should be covered 
even if the path of the threatening event changes or the 
preventative measures successfully mitigate the effects of a 
disaster.
    In our experience in Des Moines, a vast majority of the 
disaster funds were allocated and administered by the State of 
Iowa. This resulted in major delays in assisting disaster 
victims. The State had to set up administrative procedures, 
hire new staff, set up new tracking systems, and establish 
methods of communication and reporting.
    Certainly cities like the City of Des Moines and 
Entitlement Cities have capacity; we have engineers; we have 
past experience of administering Federal grants, whether it be 
CDBG or HOME or ESG, lots of Federal programs. We know how to 
do it. We are Entitlement Cities. We get annual funds from the 
Federal Government. We can help the States get that money out 
more quickly.
    Many administrative rule changes were made and are still 
being made resulting--and I am just talking about our 
experience in 2008. There is still more delay and confusion.
    While this administration and administrative model may be 
necessary in rural and unincorporated areas, certainly many of 
the areas hardest hit are the Entitlement Cities. And we 
experienced federally funded programs, as I mentioned a minute 
ago, CDBG and HOME funds. Entitlement Cities, including Des 
Moines, we already have in place those staffs and 
accountability and understanding needed to administer those 
programs. Direct allocation to those Entitlement Cities was 
done during the floods, 1993. As I mentioned earlier, we had 
those funds on the ground in 60 days working to mitigate 
immediately. Obviously we responded immediately, but we had the 
Federal funds already in motion. We have the capacity.
    Because the funds are allocated to the State, localities 
have had much less control over how the funds are spent in 
their communities. The State of Iowa set up specific programs 
and allocated funding based on Federal Emergency Management 
Agency, FEMA, and Small Business Administration, SBA, 
assistance received. This allowed little discretion to decide 
what is most critical at the local level. In Des Moines, for 
example, dealing with aging infrastructure is a high priority. 
Much of our infrastructure is over 150 years old, and we--it is 
significant prevention in mitigation strategy to work on those 
pieces of our infrastructure, but limited competitive funds 
were made available for this activity at the State level.
    Direct allocation of disaster recovery funds to Entitlement 
Cities would allow for expedited assistance to victims and 
increased local control over priorities without jeopardizing 
administrative or financial accountability.
    We were able to have direct access to know who--actually we 
were unable to get direct access to know who in our community 
received FEMA or SBA assistance. This information would be 
helpful in assessing where to concentrate our outreach, as well 
as to verify the amount received for the duplication of 
benefits process that is required under the Stafford Act.
    FEMA recipients were unaware of the specific items their 
funds could be spent on, home repair versus personal property, 
et cetera, or that they needed to even keep receipts.
    The on-line system that FEMA recipients can utilize to get 
a copy of their FEMA awards is cumbersome, and it is hard to 
use.
    The assessment that FEMA did in order to award funds seemed 
to be all over the place. We had families awarded as little as 
$60, when, in fact, they had thousands of dollars' worth of 
repairs. We understand that FEMA is just the front line, and 
that more assistance will be available, but many of the 
families in the Jumpstart--by the way, the Jumpstart was an 
Iowa program that took CDBG funds and used those--were not. 
Some took payday and car title loans to pay for those repairs 
that the FEMA funds did not cover.
    We need coordination between FEMA and the U.S. Corps of 
Engineers in each and every event where both entities exercise 
jurisdiction. The absence of this coordination is particularly 
problematic for communities told by FEMA that levee repairs, 
for example, are not FEMA-reimbursable expenses because they 
view this as a Corps-reimbursable expense, while the Corps says 
the expense is Corps-nonreimbursable because they view it as a 
FEMA-reimbursable expense.
    So the response time from FEMA is also slow. The Birdland 
area, which is one of our areas where we had a breach in the 
2008 event, the City of Des Moines was substantially damaged by 
flooding, and the area was not eligible for property 
acquisition under HMGP because it is protected by a levee. And 
since that area did not qualify for that type of assistance, 
the City of Des Moines was forced to administer a locally 
funded flood buy-out for damaged properties after those floods. 
The HMGP program needs to be amended, or a different program 
needs to be established to include these types of properties as 
the impact on these properties was as severe as it was to 
properties eligible under the HMGP.
    Grant administration is ineffective and overly time-
consuming, and it is often difficult to understand the rules of 
FEMA involvement in the midst of a disaster, and is often 
difficult to determine who our cities should use as a FEMA 
point of contact having authority to represent the Agency 
during the disaster.
    Thank you for the opportunity to testify on the matter, and 
I will be happy to participate in the question and answer.
    Ms. Norton. Thank you very much, Mayor Cownie.
    I want to move quickly then to our final mayor, Mayor 
Robert J. Duffy, who is the mayor of the City of Rochester. 
Welcome.
    Mr. Duffy. Thank, you Madam Chair.
    Chairwoman Norton, Ranking Member Diaz-Balart, Congressman 
Cao, Members of the Subcommittee, I am Robert Duffy, mayor of 
the City of Rochester, New York. I am a member of the U.S. 
Conference of Mayors Stafford Act Reform Task Force, chaired by 
Mayor Nagin, and also serve as a Chair of the organization's 
Criminal and Social Justice Committee, which has policy 
jurisdiction over the issues we are discussing today. I am 
honored to have the opportunity to appear before you this 
afternoon and ask that you include my full statement in the 
record, and I thank you for this chance.
    Before I focus on addressing disasters in cities, I want to 
thank the Committee on Transportation and Infrastructure and 
its leaders for their efforts to address the many complex 
transportation and infrastructure challenges before our Nation. 
We recognize that the next surface transportation bill presents 
an opportunity for renewed commitment to investing in cities 
and metropolitan areas, and we recognize that challenges will 
be encountered along the way. Please know that mayors stand 
with Members of this Committee who are committed to sustainable 
transportation policies that reinvest in our Nation's cities 
and metropolitan areas, the areas in which 84 percent of our 
people live, and more than 90 percent of our future economic 
growth will occur.
    We all owe a debt of gratitude to Mayor Nagin for the 
outstanding job he has done as the Chair of our task force, and 
also to Sacramento mayor Kevin Johnson, the task force's Vice 
Chair, for the great assistance that he provided. Mayor Nagin 
has experienced something that I hope no other mayors will ever 
have to experience in their careers. We all appreciate his 
willingness to chair our Stafford Act Reform Task Force and to 
lead our efforts to identify needed reforms in Federal disaster 
assistance.
    In January, the Conference of Mayors adopted a policy 
resolution which incorporates the recommendations of the 
Stafford Act Reform Task Force. This means that recommendations 
included in the task force report represent the official policy 
of the U.S. Conference of Mayors. Today I would like to cover 
several of these recommendations.
    Under disaster assistance programs, many programs created 
by the Stafford Act have limitations set by law, regulation or 
policy that have caused problems and delays in recovery of 
impacted communities. The requirement for grant programs to be 
run through the States instead of directly with cities adds an 
additional layer of bureaucracy and delay. Another serious 
impediment is the limitation on the use of grant funds to pay 
regular as well as overtime hours for work performed by the 
staff of affected jurisdictions following an event.
    We all believe that disaster grant programs, including 
Hazard Mitigation, should be changed to give grant standing to 
local jurisdictions that are Community Development Block Grant 
Entitlement Communities so that they may deal directly with the 
Federal Government.
    Further, assistance programs should be changed to cover 
both regular and overtime pay for the work performed by State 
and local public employees, such as first responders, building 
inspectors, health care professionals and sanitation workers, 
following a disaster.
    Under individual and household assistance, the Stafford Act 
should be changed to increase funding for and improve 
administration of programs to meet the needs of individuals and 
communities experiencing disasters, as well as the host 
communities providing assistance. Stafford law and regulation 
have authorized many programs to assist people affected by 
emergencies and disasters, but current funding for the program 
is insufficient to meet the need, and the implementation of the 
programs themselves needs improvement. The existing 
deficiencies hurt both disaster victims and the communities 
that host those who are evacuated.
    This is a particularly acute problem in catastrophic 
disasters in which significant time passes before evacuees can 
move back to their communities. For all disasters, thorough 
case management handled by qualified professionals as opposed 
to inadequately trained temporary workers is essential to the 
success of Individual Assistance and other programs that offer 
help to victims. Further, changes in law and regulation are 
needed to ensure that host communities are made whole after 
providing shelter and resources for the victims.
    Under FEMA administration, there is a final recommendation 
I will cover that could go a long way to improving 
administration of our disaster programs. The Stafford Act and 
related laws and amendments should be consolidated into one 
code to reduce variable and conflicting interpretations and to 
provide clear guidance for FEMA and communities that are 
working to apply disaster policy, regulation and law in 
preparedness, response, mitigation and recovery.
    With the situation that we experienced in Rochester, in our 
City of Rochester and our surrounding Monroe County, we have 
had numerous disasters over the years that required Federal 
assistance. These include the ice storm of 2003-- I am sure is 
hard to imagine ice and snow in upstate New York-- which 
required $16 million in Individual Assistance, $9.2 million of 
public assistance and $76,000 in mitigation funding. While this 
event did not garner nearly as much national attention as other 
disasters that have occurred in other areas of our country, it 
is a reminder that all disasters have the potential to create a 
tremendous amount of suffering and financial hardship in the 
communities in which they strike. The $16 million in Individual 
Assistance, for instance, aided no less than 6,400 households 
that were in some way affected by that storm, based on the fact 
that FEMA awards no more than $2,500 to each affected 
household.
    Clearly many lives are disrupted by disasters. This is true 
for all cities in metropolitan areas, those which are at 
particular risk of disaster because of their geographic 
location or other factors, and those whose risk of disaster 
seems to stay below the national radar. For this reason we are 
all obliged to do everything possible to be ready if disaster 
strikes. I feel as strongly as my colleagues who have 
experienced major disasters that the Stafford Act must be 
reformed. I feel just as strongly that our recommendations can 
help to guide that reform.
    I want to thank you for this opportunity to testify on this 
very important topic. We look forward to working with you and 
this Committee on the needed improvements for the Stafford Act, 
and we are also very happy to take your questions. Thank you.
    Ms. Norton. Thank you very much, Mayor Duffy.
    Ms. Norton. Let me start off the questions in this way. I 
am particularly interested in this notion that you have raised 
and a number of others have raised about an additional 
designation. You and others have called it the ``catastrophic 
designation''. I think this was authored by New Orleans, as a 
matter of fact, without intending to, that there are disasters 
and then there are megadisasters.
    Now, you point out as well, I think you did, Mayor Nagin, 
it is very hard to get into matters of definition. Everybody 
thinks the world is falling apart on his watch, and they want 
the highest and best designation they can find.
    I can tell you, all three of you, that certainly for the 
first time that I can remember, and I was born and raised in 
the District of Columbia, a Presidential major declaration, a 
disaster declaration, has been issued just today for the 
District of Columbia, already for counties in Maryland and 
Virginia, because we had what you, Mr. Duffy, would perhaps 
regard as light snowfall here, but for us it was quite major. 
And perhaps the best evidence of that is it not only shut down 
the schools--they shut in a moment's notice if there is a few 
drops, sometimes even raindrops--but it shut down every 
regional government, it shut down the Federal Government for 
almost a week, it shut down our subways. So I had no doubt that 
we would get a major disaster declaration. I talked to FEMA all 
during it. Of course, the Executive had to request it. So I 
began to personalize this and to identify entirely with you.
    Now, we have a provision in this bill that I have 
repeatedly cited in my opening remarks, 3377, and we call it 
special procedures. And that would occur when a President 
determines that there are--and we use these words in the 
statute--extensive and widespread damage. Do you believe that 
H.R. 3377 covers essentially what you are talking about and 
would provide the assistance you would need in what you call a 
catastrophic disaster?
    Mr. Nagin. Madam Chairwoman, I think that the bill you 
reference definitely gets us much closer than we have ever 
been. Our argument has been for an event that is so devastating 
that it would either totally shut down the area for an extended 
period of time, or the population would have to be totally 
evacuated, or it would impact a multi-state region, or it would 
have a significant impact on slowing down--a significant impact 
in the Nation's economy. Now, that is very difficult to----
    Ms. Norton. That is interesting. You have just almost 
written some regulation for that. You said the Nation's 
economy. And, of course, that happened in New Orleans.
    Do the rest of you think that the Nation's economy should 
be implicated in order to get this?
    Mr. Nagin. This would be something that would be very 
infrequent and unique, and something that wouldn't happen 
often, but if it did happen--for example, we are watching these 
earthquakes in Haiti and now in Chile, and we know that some 
areas of the United States sit on major fault lines that 
haven't had an event in quite some time. I mean, I wouldn't 
want to wish this on anybody, but in the event that something 
happened like that in the United States, and you had to 
evacuate a million people or something like that, then you 
would have these designations to kick in.
    And if I could be very frank, Madam Chairman, giving the 
President's authority and using the existing FEMA regulations 
is fine if you have your politics fairly lined up. The 
experience in New Orleans is that we had conflicting political 
agendas. And there is something in the Federal regulations that 
talks to posse comitatus, and we ran into that during Hurricane 
Katrina where there was a Governor who is of one party and did 
not invite the President of another party in to allow troops to 
come in and do what they had to do. Then we were kind of stuck 
in this no-man's land.
    I hope that has been subsequently fixed. I hear there was 
something that was done after Katrina. But those types of 
instances should automatically trigger special provisions.
    Ms. Norton. Mayor Nagin, I am going to go to either Mr. 
Diaz-Balart or Mr. Cao--they can decide which--next, because 
for reasons having to do with a pending bill to give residents 
of the District of Columbia full voting rights, I can vote on 
some measures, but not on most on the House floor. So we are 
going to have to decide about how to proceed on questioning.
    But I am going to allow the other Members to proceed, and 
let me tell you why. Because, Mr. Cao, Resolution No. 2 on the 
floor--you will be pleased to hear this resolution, Mayor 
Nagin--congratulating the National Football League champion New 
Orleans Saints for winning the Super Bowl and for bringing New 
Orleans its first Lombardi trophy in franchise history. And I 
understand that you, Mr. Cao, have introduced this bill, so 
maybe Mr. Diaz-Balart will let you go first, if the gentleman 
who is the Ranking Member would allow that courtesy.
    Go ahead, sir.
    Mr. Cao. Thank you very much, Madam Chair. And then since 
it is my bill, I better be there and vote for it.
    But, Mr. Mayor, Mayor Duffy and Mayor Cownie, first of all, 
thank you very much for being here.
    My first question is focused on the CDL. In the proposal 
that you all drafted, you proposed that CDL loan forgiveness, 
at least the $5 million cap be removed, and that the amount 
available for loan funds should match the amount of revenue 
lost. Can you explain to me how is it different from how CDL is 
being conducted right now, and how do you see that as an 
improvement over what we presently have?
    Mr. Nagin. Well, the CDL requirement in the current act 
caps the loan amount at $5 million, period. We came in and got 
two subsequent amendments or one-time exemptions for the New 
Orleans experience. I think it was in October of 2005 we got it 
raised to 25 percent of the revenues that we lost, and then a 
full year later that was bumped up to 50 percent. Am I 
answering your question? That was a one-time change.
    Mr. Cao. But based on the amount of loans that you received 
under the present regulations, are they adequate in order to 
cover the amount of revenue loss that you suffered?
    Mr. Nagin. We made it work at 50 percent of the annual 
revenues that we lost. But what I am saying is that going 
forward, if we had another Katrina event, we would start again 
at the $5 million cap.
    Mr. Cao. Now, as you are fully aware, subsequently after 
Katrina the recovery process was somewhat uncoordinated. We 
have Federal agencies, we have State, we have city in which the 
whole recovery process was--at least from the perspective of 
the average citizen did not go--the process was not carried out 
in a concerted effort. We are looking at ways to propose that 
there should be a coordinating agency. We have the office of 
the Federal coordinator, but she did not have the power to do 
much of anything.
    Based on your experience, Mr. Mayor, how can we revise the 
Stafford Act in order to allow a better coordination of the 
recovery process, coordinating between the Federal agencies 
with the State and with the city, and who should be the point 
person?
    Mr. Nagin. Wow, that is a big question. They tried to set 
up a recovery czar, but that person had to go negotiate with 
each Secretary to get things done, and the priorities just 
weren't synced up, so it never moved quickly.
    If you are going have someone who is going to coordinate 
everything, then that person should have responsibility for the 
key things that you need during a recovery. Let me just hit 
quickly on housing, for example. In my humble opinion, I think 
that HUD should be the agency that steps in at some point in 
time. Once a disaster has been stabilized, FEMA should move to 
the side, and HUD should be responsible for providing whatever 
temporary and long-term housing that that particular community 
needs, because that is basically what they do on a day-to-day 
basis. FEMA at some point just continued to be in the 
compliance mode, and everything ground down to a very slow 
pace.
    Whether there is somebody who can manage every aspect of a 
recovery, I am not sure. The closest you probably have to that 
today is probably the Secretary of Homeland Security, but then 
HUD is not part of that.
    Mr. Cao. Mayor Cownie, based on your experience with, is it 
Des Moines, do you see adequate coordination between the 
different Federal agencies with your State, with your city to 
recovery? And if you were to recommend a better coordination 
with respect to recovery, what would you recommend?
    Mr. Cownie. Again, that is a--I don't know how many hours 
we have to discuss that, but there needs to be a person who is 
in charge. We had Corps of Engineers, we had FEMA, we had HUD, 
we had all kinds of Federal agencies, and different programs 
were in place, and, of course, you couldn't have duplication of 
payments on anything, and trying to get anybody to make a final 
decision was very hard. And I think that if your question was 
how would we do that, I think, as Mayor Nagin said, if there 
was a central place of control, and they coordinated all of the 
agencies together much as we do in the cities--I mean, I know 
what my housing department is doing, I know what the police are 
doing, I know what fire is doing, I know what public works is 
doing, and we manage our resources. And if we had some way to 
make that happen with Federal agencies as well, I think it 
would coordinate and expedite not only the movement of funds in 
the help to people, but it would make better use of funds in 
Federal dollars and certainly, as I say, move it across.
    Here we are sitting in 2010, and I will tell you that right 
here sitting in Washington, D.C., we have got 4 foot of snow 
sitting on the ground north of us and 2 foot on the ground in 
Des Moines, and with just a regular rainfall, we could be 
looking at a situation much worse.
    Mr. Cownie. If we have 2008-type rainfalls come in the next 
60, 90 days, we need to start coordinating right now.
    So I just think that maybe sort of a pre-coordination 
between all those folks to decide how we are going to start 
thinking about it, what our mitigation plans are. Certainly we 
have experience in doing that. We were successful in 2008, but 
I think coordinating not only all Federal agencies but working 
with all other levels of government, State and local, city, 
county governments, and coordinating all those efforts would 
really be helpful to the people, which at the end of the day 
that is who we all serve.
    Mr. Cao. Do you propose that the mayors themselves be the 
coordinating entity, since you are the ones who know your city 
inside out? Or do you propose the State or a Federal agency to 
do the coordinating?
    Mr. Cownie. Again, using our 1993 experience, we had funds 
come directly to us through CDBG and other programs that we 
were directly funded for. We had that money out the door and in 
the projects almost immediately, 60 days after the event.
    Unfortunately, in Iowa, as I mentioned earlier, the State 
had to set up all kinds of a new bureaucracy and put people in 
place to manage it; and in February of 2009 they were still 
trying to figure out the rules and the regulations and roll 
dollars out and help people.
    In the city of Des Moines, we used our own funds to go 
ahead and do that. There are other cities in the State of Iowa 
that still have caibo sitting on the streets almost 2 years 
later.
    Mr. Cao. Thank you very much. I yield back.
    Ms. Norton. Mr. Diaz-Balart, before you go, do you have any 
questions for any of mayors?
    Mr. Diaz-Balart. Not at this time, Madam Chairwoman, thank 
you.
    Ms. Norton. Thank you very much.
    Let me then proceed with questions for each of you.
    Mr. Duffy, I think you were not the only one of the mayors, 
Mayor Cownie, I think, also testified about increasing the 
Hazard Mitigation Grant Program. This is a favorite of the 
Subcommittee.
    When you speak about floods, the first thing that occurred 
to me was I hope there has been a lot of hazard mitigation. You 
think about the kind of snow you have to melt. The only 
difference between you and us is you presume to have the 
equipment to try to remove some of it, but that doesn't take 
care of all the flooding that is expected.
    Could I have this map? The flooding, because the colors are 
vivid, perhaps you can see, everything in pink and red is 
expected to go through flooding this year. The only dry spot is 
over in the west, for some reason. So we take very seriously 
what you are saying, Mayor Cownie and Mayor Duffy.
    First, we do have hazard--we have indeed focused on hazard 
mitigation rather considerably. It is our own H.R. 3377, 
which--if I might go to building codes--which we have included 
in that provision.
    Now, I mentioned in my opening statement Chile and Haiti. 
Now Chile had a worse earthquake and what appears to be less 
damage, less physical damage. I hope everybody is paying 
attention to Chile and Haiti, because that is the kind of two 
cases--look at them and think about, yes, there are parts of 
the United States on a fault line or, for that matter, where 
similar problems could occur. Because people just think it 
won't happen to them.
    So we have included building codes. Now do you believe 
these changes? I don't have any idea of the extent to which 
building codes are in fact. You are mayors. I don't know if you 
find it mostly in cities and not in rural areas. Why do you 
think they are so important? Do you think they are important 
largely for cities and other jurisdictions on fault lines?
    You go so far--I think it is Mayor Duffy--to say that the 
cost of building code and permitting officials should be part 
of FEMA's public assistance program. So I wish you would 
explain how you see building codes fitting into the Stafford 
Act and where you see them as most useful.
    Mr. Duffy. Thank you, Madam Chair.
    I would like just to comment briefly in terms of building 
codes. Our city and really the State of New York has very 
strict codes which are often----
    Ms. Norton. Is that a State code.
    Mr. Duffy. The State has a code. We have a very strict code 
in the city of Rochester, but the State also has a very 
stringent coding system. Those who are building homes and 
developers often find them very difficult to get through 
because of some of the restrictions. I think----
    Ms. Norton. The State restrictions or city restrictions?
    Mr. Duffy. For us, it is the city, our city restrictions.
    But the one thing, as you just mentioned, the part of the 
building code process which is so important is that, first of 
all, we are ensuring that buildings when they are built can 
sustain damage and certain catastrophes. They also are built to 
code for fire, fire protection. So some of the things we have 
seen in Haiti and Chile--and it is more in Haiti than in 
Chile--reinforces the need for that code system.
    And if there is a disaster--and no one can speak like Mayor 
Nagin about this--but I believe building inspectors, when they 
go out in the midst of a disaster, have to be on the front line 
with our first responders. I think they are a critical 
component to the assessment and rebuilding of areas that are 
hit very hard by disasters.
    Mr. Cownie. If I might also--and I am sure Mayor Nagin has 
a similar appearance--but when we were going into areas that 
had been devastated and had homes under water, the first people 
in there were the building code people. They had to see and, 
first of all, give us some estimate of the level of damage that 
each of those structures had sustained; secondly, whether or 
not they could be repaired or were inhabitable; and, if not, 
what needed to happen to either secure them or move straight to 
demolition.
    Now often that happened way before we ever saw any Federal 
funds or even a hint of them. As soon as the water went down, 
we were in there. And I think that those are the kinds of 
things that we need to know, is sort of a first, initial 
valuation; and those are the kinds of things that you want to 
know as well. And we think that at least in part those, if not 
in whole, those should be covered expenses either by grant or 
loan.
    Ms. Norton. Do the three of you think H.R. 3377 covers your 
concerns?
    Mr. Nagin. I think it does, Madam Chair.
    The one other thing we would ask is that, as it relates to 
hazard mitigation, there is a requirement for us to, if we tear 
down a building in a residential area, that you have to turn it 
into green space. And in an urban environment we don't think 
that is very smart use of land in a city. So we think there 
needs to be some modification to that. There is a pilot that we 
have been working with to basically tear down and rebuild 
something similar in that same space.
    Ms. Norton. Well, that sounded strange to me. Yes, they 
don't want people to rebuild in the floodplains, so the 
alternative to green space would be building in such a way that 
you don't go down again in the flood. I could see if you are in 
the middle of town you may need that space.
    Mr. Nagin. Yes, sometimes you have in the middle of cities 
some areas for one reason or another that may be subject to 
repetitive flooding. You can build there. You just have to 
build higher.
    Ms. Norton. Well, you would want that. You wouldn't want it 
to go under.
    Mr. Nagin. Absolutely. You want to build higher and 
smarter. But if you use hazard mitigation money and you do 
demolition on that spot, then it is required to be green space.
    Ms. Norton. Mayor Duffy.
    Mr. Duffy. Madam Chair, just to reinforce what Mayor Nagin 
said, Rochester is situated on a great lake, a river, and a 
canal; and a large portion of our area from our center city on 
out is located in Federal floodplains. I would agree with Mayor 
Nagin that while there have to be decisions made in terms of 
the rebuild after a catastrophe--and we have had serious 
flooding going back two or three decades ago--they should be 
made at the discretion of the local government. Green space may 
be applicable, but this may not be reasonable or appropriate.
    Mr. Cownie. Madam Chairman, I also would like to just 
reinforce what my fellow mayors have said, but I will tell you 
in most of the large cities in the State of Iowa and probably 
in most of the States that have rivers and are on the coast, we 
are all subject to some level of flooding.
    We, the city of Des Moines, sits at the confluence of two 
rivers, and it was put there for a reason, originally for 
transportation, but we are protected with levees. The problem 
is sometimes you get a certain amount of rain with the levee; 
and if the river is high enough you have some other issues on 
how to get the water into the river and so you have sewer 
backups, have different kinds of flooding. And so we have to be 
cognizant of that, at least in the State of Iowa.
    I would say the 10 largest cities all sit on rivers and a 
certain portion of them are subject to different types of 
flooding. The city of Des Moines has been successful in 
mitigating many of those problems, but there may be a 
circumstance that we haven't foreseen that would cause that to 
happen yet again.
    Ms. Norton. I am a lawyer, so I wanted to see these words. 
Again, I live in a city, and I can imagine this process, this 
happening.
    Now it does say any property acquired, accepted or from 
which its structures would be removed to protect will be 
dedicated and maintained in perpetuity for use that is 
compatible with open space, recreational, and wetland 
management practices. It looks like it was built for some rural 
areas or something.
    Now the technical notion is that, yes, you can use it if 
you are going to take existing structure and elevate it in some 
way, but if you are going to buy it out altogether, then you 
can't use these funds. You can do it, but not mitigation funds, 
not using these funds.
    I think we really are going to have to look at the 
experience of cities and what we are talking about here.
    Mr. Nagin. Madam Chair, I can just give you some very 
specific examples in New Orleans. There are some areas of our 
city where we are building and we are elevating the residence 
where the bottom floor, the first floor, is strictly for 
parking; and we are building apartments that way, also. Which, 
if you use hazard mitigations in a creative way, you can 
facilitate more of that in cities; and that is what we are 
saying now.
    Ms. Norton. So you don't want to elevate it because you 
don't mind the cars getting flooded?
    Mr. Nagin. We don't mind the cars getting flooded. That is 
okay. We can deal with that. But, right now, if we are in an 
area that we know floods and we use hazard mitigation money, 
then that space is gone. You can't build something like I just 
described.
    Ms. Norton. Well, this hearing is about cities; and I am 
making sure that the Stafford Act conforms to the needs of 
cities in particular.
    Mayor Duffy.
    Mr. Duffy. Madam Chair, just to go back to a comment-- a 
question asked a minute ago-- perhaps in its consideration this 
body should look at some flexibility with the legislation that 
would give the mayors or county executives or executives of 
local areas flexibility, but with justification and 
accountability.
    So if cities made decisions--say Mayor Nagin made decisions 
that may controvert some of the language-- I think if Mayor 
Nagin could justify why he is making those decisions, there 
should be flexibility-- philosophically as in block grants-- in 
which mayors are given flexibility about how to spend funds, 
but should be held accountable for those expenditures.
    Ms. Norton. I hear you; and, of course, I am sympathetic to 
what you are saying. We know that the word "flexibility", like 
other words we spoke of earlier, needs definition. But also, 
where the cities are very different city to city, I don't like 
that kind of language in law. When you write a statute, the 
best way to write a statute is very broadly and to require the 
administrative agency to issue regulations based on experience. 
This is the old common law experience that you learn from 
experience.
    So I immediately--when you have something in law that says 
something like that and it must revert to green space, and then 
I think about the United States of America, you know, it was 
all green space until we messed the whole thing up. So we ought 
to be a little more humble when we put words into language.
    I think we have got to look at this, but we have also got 
to--if we were making changes, we would have to have FEMA come 
back to us with cases in point.
    You see, part of the reason we are having this hearing and 
why your testimony is so valuable is we really are trying--as 
you can see from 3377--to conform the Stafford Act to places 
that the Framers perhaps did not envision.
    And the cities have become central to every jurisdiction, 
every area--excuse me--in the United States. So even when 
people move out of the city, the city still is the focus, it 
still the capitol. When Haiti went down, the capitol went down; 
the whole city went down.
    So we have found, frankly--and I don't need to tell you 
this--when you gave FEMA flexibility it runs from its own 
flexibility. We have had to beat them about the head and 
shoulders just to get them to do what the statute says.
    But we have got a new administrator who has on-the-ground 
experience. This is something we certainly will try out on 
them. Still hasn't been to the floor yet, so we still have some 
opportunity to work on it.
    We don't want your--we are glad that you have come before 
the matter is completely resolved. We see the difficulties, but 
we also see the problem of simply going ahead and ignoring what 
the experience has been.
    I am very interested in experience like the experience you 
offered, Mayor Nagin. To put that example to someone, you can't 
rebuild in a floodplain. That is kind of doing the same thing 
over again and asking the government to pay for it. And the 
question becomes, obviously, the government is not going to pay 
if this happens. You have got to carry flood insurance there.
    So first thing I think is, well, what do I care? If the 
city wants to build that way and it wants to have people 
understand that if they park their cars on the lower level it 
is up to them, don't come to the city.
    Notice, though, what FEMA--I am just giving you an 
example--would say. Okay, so it weakens the entire framework 
because you have elevated it. Well, you ought to elevate or 
require that it be elevated so it doesn't weaken anything.
    But hypotheticals help me to understand that flexibility is 
indeed relevant or beneficial. So I would ask you that within, 
I would say, 14 days to get us any examples that you could of 
how flexibility might be useful in cities where people live in 
congested--more congested than they do in rural areas and where 
the city has limits so there is nowhere to go outside of there. 
You can't just say we are going to take part of the county to 
make up for the space that is gone.
    I was very concerned--I think it was you, Mayor Nagin, that 
talked about hazard mitigation funds and huge--well, relatively 
huge amounts, all of it small, but tiny amounts making its way 
to the cities. You have to make me understand. Would you say 
the figures again and then try to march us through how you 
could get so little money after the amounts had been granted to 
the States?
    Mr. Nagin. Our experience has been I think for any 
catastrophe or any disaster that happens based upon the value 
of the damage I think it is 3 percent--or I may have my 
percentages wrong--of that damage amount goes into a hazard 
mitigation fund. It is administered through the States. There 
is significant amount of regulation and bureaucracy. It is 
probably the most difficult money we have to spend.
    The thing that was alarming to me is that we had 57 percent 
of the total damage in the State, throughout the entire State. 
So that means a significant portion of that 1.4, $1.5 billion 
should have come to my city, but, thus far, today, four and a 
half years after Hurricane Katrina, we have only been allocated 
about $30 million.
    Ms. Norton. Has more money gone to more parts of the State?
    Mr. Nagin. It is just stuck.
    Ms. Norton. So that is what I am interested in. What sticks 
it? What keeps it from coming forward? If you got 30,000 out of 
how much?
    Mr. Nagin. Thirty million out of 1.4, $1.5 billion.
    Ms. Norton. And you believe you qualify for more than that?
    Mr. Nagin. Fifty-seven percent, we had 57 percent the 
overall damages in the State.
    Ms. Norton. That doesn't mean you would automatically 
qualify in the statute, does it.
    Mr. Nagin. No, but I think we can qualify for a higher 
amount than 5 percent.
    Ms. Norton. We will ask the next panel how they could 
explain that small percentage being allocated in light of the 
catastrophe.
    Mr. Nagin. My impression is that the States, this is hard 
money to spend, so they try and deal with CDBG first.
    Ms. Norton. Hard money to spend because?
    Mr. Nagin. Because of the regulations, the rules. You have 
to do environmentals. You have these rules about green space. 
It is just very difficult money for them to get out the door. 
And there is no real requirement about how they spend the 
money. So instead of it being formula based for the most 
devastated areas in the city, it is almost an arbitrary 
process.
    Ms. Norton. I am interested that you indicate--I think it 
is you--it may be Mayor Cownie indicates that the program 
should be in proportion to the damage. Are you talking about 
some kind of specific formula? Some would argue if you move 
that flexibility that the funds might not go to the areas in 
greatest need of mitigation. Do you have any thoughts, further 
thoughts about that?
    Mr. Nagin. We have advocated--I will turn it over to Mayor 
Cownie-- but we have advocated for some sort of formula. There 
may be a range in that formula, but it should be based upon 
repetitive flooding, repetitive damage, overall damage that 
happened in that particular State.
    Ms. Norton. Mayor Cownie.
    Mr. Cownie. I would agree with Mayor Nagin. I think that 
because of the size of these larger cities in places--Mayor 
Nagin speaks of 57 percent of all the damage that happened in 
the State. Among other things, that is because he has the most 
value in his city of most any other place in the State.
    The State of Iowa, our metropolitan area is about 27, 28 
percent of the GDP, the employment, the jobs, the buildings, 
especially the larger ones. And, again, we sit in areas that 
are densely populated. So when we see something happen, it 
happens with infrastructure. We make much better use of our 
infrastructure.
    I want to quickly also point out that, for Mayor Duffy and 
I, our situation is a little different. We don't sit on a 
coastal area. And part of the problem that happens to us is 
exacerbated by policy that is set out in other parts of the 
State. The cities north of the city of Des Moines didn't much 
care about containment and capture and control release of flood 
stuff, because it all came downstream. But when the cities and 
little suburbs north of some of our suburbs started happening 
and they started flooding, they started becoming very aware 
that there ought to be some sort of policy that governed this.
    Some of the things that have happened over time exacerbate 
our situations. Pre-settlement times, the State of Iowa, 85 
percent of the water that fell on a piece of ground was 
absorbed right there on that piece of ground. Now it is 15 
percent. We do other things with the ground today. They are 
hard surfaced. It doesn't necessarily say that there is an 
increased amount of water, but certainly the velocity of the 
water coming off of that watershed is much more today than it 
was 50 or 100 years ago because of the hard surfacing and the 
gray infrastructure that has been put in place. So it causes us 
to have to handle our situations in the more densely populated 
areas a little differently than we did 20, 30, 50, 100 years 
ago.
    Ms. Norton. Of course, the State is looking at, among other 
things, what is the most cost-effective projects; and this 
becomes very difficult, particularly if the amounts are totally 
out of whack for where the damage is.
    I don't want to hold you much longer. I do want to ask you 
about this straight time for State and local employees. Because 
FEMA is supposed to do only for things above what a State would 
be doing anyway, so the regulations do not pay for other than 
overtime. Can you explain why you want FEMA to adopt a policy 
of paying for straight time for employees?
    We are talking about they are working to help with the 
disaster, and the way in which this difficulty comes is that 
straight time is part of the regular budget, and most people 
would be on the ground anyway, and all we are supposed to be is 
supplementing the local efforts.
    Mr. Nagin. The argument that we are making is that after a 
major disaster that you have a significant amount of 
individuals in the organization who, basically, their full-time 
job becomes to deal with the disaster. All of our inspectors 
for----
    Ms. Norton. But they are working 8 hours on doing what they 
were doing. It just happens they are doing other kinds of 
things because they have a disaster on their hands.
    Mr. Nagin. Not for us. I mean, our norm turned into 
disaster management. It just wasn't--the things we dealt with 
before the storm just went away. So we are having to supplement 
the straight time with a significant amount of overtime, trying 
to catch up with all the requirements of assessing the damages.
    Ms. Norton. I see the distinction you make. I think FEMA 
should take a look at its regulations in light of the existing 
experience. It is true that if you were, let's say, collecting 
garbage, you are not collecting garbage anymore if you are in 
New Orleans.
    Mr. Nagin. Debris.
    Ms. Norton. Yeah, debris or worse. That is something you 
have never done before. And I can see you would not be 
collecting anything, but you may need every man and woman on 
the ground to be doing something.
    Mr. Nagin. And there should be a sunset. There is a period 
of time----
    Ms. Norton. Sunset for?
    Mr. Nagin. For the straight-time question. At some point in 
time after the disaster you should go back to the city's 
normally paying for what that function was.
    Ms. Norton. Of course. You have to have, as we do with most 
of these so-called benefits.
    I have got to ask you about an experience we had. I nearly 
blew my gasket at a hearing involving New Orleans. I don't 
think you were here, Mayor Nagin, but we learned there was over 
$3 billion lying on the table, including dollars for Charity 
Hospital, that hadn't been spent. And why--so, in true cross-
examination--I couldn't stand it. Because we were about to do 
the stimulus bill. And so I tried to get at how in the world 
could this happen.
    And what we found out was something very, very disturbing; 
and I was particularly disturbed with FEMA. What it was was 
simply a stalemate. Each side did what each side is supposed to 
do. Each side--the State side asked for the most amount it 
could find, and the government is supposed to keep you from 
getting the most money you can find. So we delved to see what 
can we do about that.
    One thing I am looking closely at is the notion of each 
side having an expert. How ridiculous. Once you say you are 
going to get a divorce, you get an attorney, and you get an 
attorney, you know what you have set up. And so what we have is 
consensual divorce now, because we finally have some common 
sense.
    Now somebody--after these two experts, both of whom are 
qualified, get together, somebody still is going to have a 
decision to make. It is so irrational that one of the things I 
am looking at is why shouldn't we have the parties agree on a 
single expert? Just require--okay, we will go through a number 
of experts until you agree that is the expert.
    But we are already doing something in New Orleans that this 
Subcommittee altered. First, my good friend from Louisiana, 
Senator Landrieu came with a nuclear bomb. Her nuclear bomb was 
she was so put out that this money wasn't being spent that she 
was going to have the President appoint arbitrators. We said, 
well, that is going to take some time. We came to the notion of 
arbitration, but we used administrative law judges.
    Now we have in place and we are going to have a hearing at 
the 6-month period to see how this arbitration has worked out, 
rather than have each side go ping pong until the money gets 
left on the table more and more.
    Mayor Nagin, now I understand there already is an award for 
Charity Hospital. So I would just like to have first your on-
the-ground review. Because you are undergoing it now. We may 
spread it. And then the opinion of the other mayors about, one, 
having one expert they both agree on and, two, going to 
arbitration when there is a stalemate early in the process, 
rather than going back and forth until you finally whip out an 
agreement as if you were plaintiff and defense attorneys.
    Mayor Nagin first.
    Mr. Nagin. Madam Chairwoman, I think that is a brilliant 
idea. We have gone back and forth with FEMA particularly on 
estimating exactly how much it is going to cost to fix a public 
facility. They have their expert, and we hire our expert. We 
present our findings, and they still don't agree with us, and 
we were stuck until you had this arbitration process that was 
put in place recently-- now things are suddenly starting to 
move. And I think we had a huge case that was settled with 
Charity Hospital that is now going to allow us to really build 
a medical district that we have been needing for a long time.
    The only other thing I would add, Madam Chairwoman, is that 
the Office--OMB needs to be brought in the loop on this.
    Ms. Norton. Who?
    Mr. Nagin. OMB.
    Ms. Norton. Oh, they are an extra government agency.
    Mr. Nagin. I am just bringing it up to this Committee's 
attention. Because now they have had the settlement with 
Charity Hospital, I think it is about 400 or $450 million, they 
are now claiming they have run out of money and that their 
funds are exhausted. So now every project that we had pending 
is now on hold. We can't get any more PWs versioned up. So we 
have a good process, but I think somebody needs to be doing a 
cash flow analysis to make sure there is enough DRF funds as 
the arbitration settlements come down that we don't stop 
recoveries.
    Ms. Norton. Mayor Nagin, yes, the Disaster Relief Fund is 
running out of more money. I understand the President of the 
United States has put a billion and a half in there. Much of it 
will go to your school district and to Charity Hospital.
    Mr. Nagin. Okay.
    Ms. Norton. What do the other two mayors think about this 
arbitration process and one agreed-upon expert rather than 
dueling experts? You have experienced a major disaster where 
this was a major consequence, but surely you have experience 
where you go up against one another and the government is 
trying to low ball you and you are trying to do something else, 
shall we say.
    Mr. Cownie. Madam Chair, I think that for us in Iowa and 
mayors across the country, and especially those of us in 
entitlement cities, it would be very helpful if there was one 
authority that would move it forward and make a decision and 
not create a lawsuit out of it, to come to a resolution to 
decide how much should be spent or who is going to spend or 
what are the limits of the spending or what is allowable and 
what is not. And I bring my guy in, and you bring your guy in, 
and then we have a third party that is going to listen to all 
the arguments. And 6 months later we are still arguing, and we 
still can't believe, and we are appealing, and we are doing 
whatever we can do.
    I think the interest of all of us is to help our citizens 
and do it as expeditiously as possible.
    I would tell you that--back to one of my original points--I 
think the rest of us, we have capacity in certain cities of 
certain size to be able to understand Federal programs and move 
money out immediately. And we are more than willing and able 
and have worked with all levels of Federal Government, and they 
insert other levels of government between those that have the 
capacity to carry out right projects immediately.
    It really exacerbates the ability of the State government 
to make them be the funnel and then have to put it back to 
agencies that already understand how to make programs work. So 
I would go back to that.
    I agree with you wholeheartedly. Probably one expert that 
we all agree on to settle it would be much better than moving 
into arbitration or litigation over some of these issues when 
there are people out there who need help, infrastructure that 
needs fixing today, not next year or 2 years from now or 5 
years from now.
    Mr. Duffy. Madam Chair, if I could add briefly, I also 
agree with your recommendation to streamline the decision-
making process with an arbitrator. I think that the more you 
could do, that would be effective.
    If I could go back to something I think Congressman Cao 
asked Mayor Nagin earlier about which agency do you think 
should be in charge. Whichever agency the government decides. 
It is really up to you to make that decision. I think, 
philosophically, it is streamlining the process, making the 
process happen where somebody is in charge making decisions and 
can make that happen. And, according to your point, to appoint 
one person and not spend weeks or months going back and forth 
would be a much more effective use of time and certainly would 
free up the blocked funds so that they can go down to where 
they are needed.
    Ms. Norton. Well, you know, when it comes to the 
coordination--and I know he had a question--that is one thing 
with people going back and forward on who is in charge. We have 
had great problems. We think FEMA is in charge. FEMA is on the 
ground. It shouldn't have anybody from Homeland Security trying 
to tell them what to do. They shouldn't have people from 
Washington trying to tell them what to do. It is hard enough to 
know what to do when you are on the ground.
    With respect to the nitty-gritty though, when you know that 
there is some money and that the government is in for some 
money, as I understand your testimony, you do believe that the 
States and the cities could in fact get together, at least 
agree on experts so you won't have dueling experts.
    And if Mayor Nagin's--the use of arbitration process, after 
a certain period of time in which people would have tried to 
work it out themselves, the early use of an arbitration process 
with administrative law judges would be satisfactory to all of 
you.
    Mr. Nagin. Yes, ma'am.
    Ms. Norton. Thank you very much.
    Now I do have a special announcement to make. The House has 
just voted 37 to 1 with--and I am taking names. We are looking 
to find out who that was. I understand he was not of my party, 
Mr. Diaz-Balart--and 3 present to congratulate the National 
Football League champions, the New Orleans Saints, on their 
recent victory. I believe I know who that one must be. There 
are sore losers in this House.
    Mr. Diaz-Balart. Madam Chairwoman, we tend to agree on a 
lot of things, and we agree here as well.
    Ms. Norton. So, with that, I release my troika of mayors 
who delivered such beneficial testimony. Unless Mr. Diaz-Balart 
has some additional questions of his own.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. Actually, if 
that is all right with you, I would like to have just one 
question, and I will ask that also of the second panel.
    Mayor, the task force--and it is really to either one of 
you. Mayor Nagin probably has, unfortunately, more experience 
than others on this. The task force recommended to permanently 
adopt the Demolish/Rebuild Pilot Program developed after 
Katrina and Rita. And I mentioned a little bit of that in my 
opening statement. A lot of times it is more cost effective to 
rebuild, to maximize mitigation against multiple hazards, as 
opposed to just lifting a building that is going to have other 
issues.
    Can you talk a little bit about your experience with this 
Demolish/Rebuild Program and if you believe it should be an 
eligible activity under HMGP? Is that something you think 
works?
    Mr. Nagin. Well, we wholeheartedly support it. We touched 
on it a little bit earlier. But for an urban environment there 
are sections in the city that for one reason or another may 
repetitively flood or may have an issue; and we firmly believe 
that you can build smarter, you can build higher.
    I gave a couple of examples where Brad Pitt is doing a 
project in the Lower Ninth Ward for example; and every house 
that is being built in the Lower Ninth Ward now is being built 
in an elevated fashion, where parking is on the first level but 
the living space is above. So if there is another catastrophic 
event, God forbid, the flooding will be minor, and all you will 
lose is a car, but you pretty much will be okay. We have 
apartment complexes that are being built that way.
    In New Orleans East, we are getting ready to restore a 
hospital out in New Orleans East. And the design of that 
hospital is that the first floor, for the ground level of that 
hospital, will not be anything but driving the emergency 
vehicles in there-- the ambulances, and then everything else 
will be on higher levels.
    So, for an urban environment it makes sense for us to 
preserve that land and not necessarily turn it into green 
space. There may be some instances where green space is 
appropriate, but there should be a certain amount of 
flexibility to make the case, like Mayor Duffy said, and be 
held accountable for what we do.
    Mr. Diaz-Balart. Thank you, Mayor. And the other two 
honorable Mayors, you also agree that this Demolish/Rebuild 
Program makes sense?
    Mr. Duffy. I concur with Mayor Nagin. We have discussed 
that before, and it does make sense. I think having the 
flexibility is important-- while I understand flexibility is 
sometimes harder to find in law-- especially in cities.
    We have a large flood plain in our city that we would want 
to rebuild and would want the flexibility to do so, as opposed 
to just providing green space, especially as space gets 
condensed. I think Mayor Nagin has the most experience with 
this of any of us. Clearly, I fully support his position; I 
think it does apply to our city as well.
    Mr. Diaz-Balart. Thank you.
    Mr. Cownie. Yes.
    Mr. Diaz-Balart. Thank you, Mayors. Thank you, Madam 
Chairwoman.
    Ms. Norton. We have to look at the statute to make sure 
that cities like yours and mine, cities all over the United 
States, fit into the Stafford Act; and that is the whole basis 
for this hearing. This is why your testimony here and 
particularly your task force has been so useful to us.
    Remember, the Stafford Act is old; and I think it is a very 
broad and useful act. We are trying to improve it step by step 
as we go along, and your testimony has been superb. We very 
much appreciate your traveling from such distances to be with 
us today. And we congratulate you all and especially Mayor 
Nagin as he leaves office. Thank you very much.
    Mr. Nagin. Thank you, Madam Chairwoman, and thank you, 
Members of this Committee.
    Ms. Norton. We will call the next panel: Larry Gispert, the 
past President of the International Association of Emergency 
Managers; and Chad Berginnis--I am sorry. I am missing someone. 
David Maxwell as well, National Emergency Management 
Association; and Chad Berginnis, who is Senior Specialist at 
Hazard Mitigation and Floodplain Management, a Michael Baker 
Corporation. He is testifying on behalf of the Association of 
State Flood Plain Managers.
    We will be most interested to hear your take on what we 
have asked them, the Mayors, about, beginning with Dave 
Maxwell, President of the National Emergency Management 
Association. Mr. Maxwell.
    Mr. Diaz-Balart. Madam Chairwomen, could I have a moment of 
personal privilege?
    Ms. Norton. Always.
    Mr. Diaz-Balart. Thank you, Madam Chairman, for allowing 
me.
    One of the witnesses today is from Florida, from Hillsboro 
County. He is the past president of the International 
Association of Emergency Managers. He has testified before our 
Committee several times, and we always appreciate his expert 
counsel, as we do of all the witnesses. But, yes, I am a little 
parochial, and it is good to see you, sir.
    Thank you, Madam Chairwoman.
    Mr. Gispert. I will be going back to Florida tonight.
    Ms. Norton. Localism is preferred here. We appreciate that.
    We appreciate to hear first from Mr. Maxwell.

   TESTIMONY OF DAVID MAXWELL, PRESIDENT, NATIONAL EMERGENCY 
    MANAGEMENT ASSOCIATION; LARRY GISPERT, PAST PRESIDENT, 
   INTERNATIONAL ASSOCIATION OF EMERGENCY MANAGERS; AND CHAD 
BERGINNIS, SENIOR SPECIALIST, HAZARD MITIGATION AND FLOODPLAIN 
MANAGEMENT, MICHAEL BAKER CORPORATION, TESTIFYING ON BEHALF OF 
            ASSOCIATION OF STATE FLOODPLAIN MANAGERS

    Mr. Maxwell. Thank you.
    Chairwoman Norton, Congressman Diaz-Balart, and Members of 
the Subcommittee, thank you for this opportunity to testify 
today. I come before you representing the National Emergency 
Management Association and the emergency managers of all 50 
States, territories, and Washington, DC.
    As the Committee considers H.R. 3377, we continue to 
appreciate the Committee's swift action on this critical 
legislation and hope the bill will be quickly approved in order 
to strengthen emergency management capabilities across the 
country. You and your staff are to be commended for the work 
you have done thus far.
    The Stafford Act stands as the pinnacle piece of 
legislation affecting the emergency management profession. The 
original Act was intentionally written in a broad manner to 
allow maximum flexibility for practitioners and discretion by 
the President. NEMA continues to support this flexibility. In 
recent years, however, we have experienced reduced flexibility 
through unnecessarily strict interpretations of the law. These 
interpretations have led to more rigid regulations and policies 
not accurately reflecting the true intent of the Act. A 
majority of NEMA members agree the primary issue during 
disaster response rests not with the Stafford Act overall but 
rather with disaster assistance policy.
    Fortunately, FEMA leadership has recently taken strides to 
address previous policies and regulation interpretations. We 
applaud FEMA's efforts and wish to allow them appropriate time 
to complete their full review. This current policy review will 
surely drive any potential need for more broad-reaching 
Stafford Act changes in the future.
    While NEMA continues to place trust in FEMA's leadership 
during this review process, we continue a doctrine of trust but 
verify and intend to advise accordingly. Discussions continue 
within NEMA regarding whether or not the Stafford Act requires 
amending to address catastrophic disasters, but we remain 
steadfast in our belief that the Stafford Act does not require 
broad and sweeping legislative changes at this time.
    Regardless of when and if major changes are ever considered 
to the Stafford Act, one issue behind which NEMA stands unified 
is the necessity for State governments to remain the sole 
source of entry for Federal assistance into the States. When 
devastation at the hand of a disaster occurs, it remains the 
responsibility of Governors and State governments to support 
communities by insuring a seamless disaster response among all 
levels of government. State responsibility also includes the 
provision of resource coordination in a timely and efficient 
manner, interstate mutual aid as necessary, and State and 
Federal disaster assistance programs appropriately implemented.
    While NEMA would prefer not to see the Stafford Act 
significantly amended at this time, the imperative of 
reauthorizing aspects of the Act remains. Specific provisions 
within H.R. 3377 currently before your Committee achieves such 
reauthorizations, and NEMA supports many of them.
    I have outlined NEMA's position in detail in my written 
testimony, but, in general, our priorities include the 
reauthorization of the Pre-Disaster Mitigation Grant Program; 
the reauthorization of the Integrated Public Alert and Warning 
System; and support to Urban Search and Rescue Teams, about 
which two other NEMA members have testified before this 
Committee; the reauthorization of the Disaster Relief Fund; and 
the reauthorization of the Emergency Management Assistance 
Compact, or EMAC.
    Specific to EMAC, the capabilities of this program remains 
sustained by the efforts of all States and would be bolstered 
by reauthorization. Also, while EMAC currently receives FEMA 
grant funding, fulfilling NEMA's request for our $4 million 
line item appropriation would codify the program for use in 
future disasters. In my opinion, $4 million in Federal funds 
stands as a minimal investment for maintaining a proven 
national emergency response capability that day to day is 
equipped, trained, and ready to provide critical disaster 
response resources and support between States.
    Overall, NEMA remains pleased with the current structure 
and outline of H.R. 3377 and discourages broad and sweeping 
changes to the Stafford Act. Should legislative changes become 
necessary in the future, implementation at the State level 
should stand as the single most important undercurrent to any 
recommended Stafford amendments.
    I welcome any questions you may have, and NEMA will 
continue to offer support to this Committee and your staff as 
H.R. 3377 continues to move forward in the process.
    Thank you.
    Ms. Norton. Thank you, Mr. Maxwell.
    Next, Mr. Gispert, who is the past President of 
International Association of Emergency Managers.
    Mr. Gispert. Madam Chairwoman Norton, thank you.
    I am Larry Gispert, the Director of Emergency Management 
for Hillsboro County, Florida, located in the Tampa Bay area. I 
am past President of the International Association of Emergency 
Managers. IAEM is our Nation's largest association of emergency 
management professionals, with close to 5,000 members. Our 
members serve mostly at the local level, which includes both 
large urban areas as well as the smaller rural communities.
    Since Hurricane Katrina, a number of organizations and 
experts have examined the need for changes in the Stafford 
Disaster Relief Act as well as the Federal Emergency Management 
Agency's regulations and policies. Most recently, the U.S. 
Conference of Mayors has performed a review and issued the 
report which is the subject of this hearing. Opinions differ 
widely as to how, but everyone agrees our local communities 
need to prepare and recover as rapidly as possible.
    We would like to comment on a few of the issues raised by 
the Mayors' report.
    One of the key issues is a request for a catastrophic 
disaster designation. To some, a definition of a catastrophe 
would be any devastation severely impacting a community, while, 
for others, it would also require in addition some major impact 
to the overall Nation. We would urge caution in changing 
existing laws and policies.
    Caution is also warranted when considering enhancing the 
role of the Federal Government, including the military, at the 
expense of the authority and the responsibility of the State 
and local governments. However, if it is decided to define a 
catastrophic trigger and make additional resources available, 
those provisions should be contained within the Stafford 
Disaster Relief Act. The Mayors' report agrees with this 
position.
    The Community Disaster Loan Program is currently capped at 
$5 million. We believe this cap to be too low. We don't have an 
increased amount to recommend to you.
    We do agree that a strong case management program is 
necessary, and we understand FEMA is currently testing one in a 
pilot program.
    The disaster declaration process needs to be quick and 
deliberate. After FEMA makes its recommendation, the 
Presidential decision on the declaration should be forthcoming 
without further layers of review.
    We also urge considering use of the Cost Estimating Program 
to expedite the repair or replacement of eligible projects.
    We are quite concerned about making private for-profit 
entities eligible for disaster assistance. We believe that it 
would act as a disincentive and cause private entities to 
consider not purchasing insurance and also not having a 
business continuity plan. If you allow reimbursement for one, 
then you may create a slippery slope. Where do you then stop?
    We would like to make comments on H.R. 3377. We urge 
reauthorization of the Pre-Disaster Mitigation Program. We 
strongly support the work of national Urban Search and Rescue 
Teams and the authorization of them in your bill.
    We support the Emergency Management and Assistance Compact. 
Under EMAC, the State of Florida sent more than 6,200 personnel 
to assist Mississippi in their recovery from Hurricane Katrina. 
Most of those personnel came from Florida counties and cities.
    Any discussion of disaster recovery also must include 
preparedness. Proper preparedness depends on a strong 
foundation of emergency management systems at the State and 
local level. Many local governments are finding it difficult to 
maintain an independent management agency. They are assigning 
these duties to other agencies that are already overburdened 
with existing responsibilities.
    Every community needs someone continuously planning, 
training, exercising, and thinking about resource allocation. 
When this responsibility is relegated to another agency, proper 
planning suffers from the inherent lack of attention.
    In Florida, we say the first 72 is on you. This recognizes 
the responsibility of individuals to be prepared. We believe 
all citizens should do their utmost to take care of themselves, 
family, and, hopefully, their neighbors. If our citizens would 
do this, we could then concentrate our focus on helping those 
who cannot help themselves.
    It is also vital that all levels of government provide 
information to citizens that explains what the authorities can 
and cannot do in a disaster situation. Citizens' expectations 
will always exceed the ability for any government to deliver 
services during a disaster. Knowing full well that it takes 
people and money to properly respond, our citizens will still 
expect us to respond rapidly and effectively, regardless of the 
current economic situation.
    Finally, we would like to address the 100 percent Federal 
reimbursement issue identified in the report. Like the 
reimbursement to private entities issue, we believe this would 
act as a disincentive to proper planning and preparedness. We 
believe that it remains important for State and local 
governments to have some skin in the game. This makes all 
members of the team responsible for jointly setting recovery 
priorities as well as minimizing fraud, waste, and abuse of 
these taxpayer funds.
    My father always told me, them that pay for it have a right 
to call the shots. No local community really wants the Federal 
Government to totally dictate how they rebuild and recover from 
a disaster.
    I will be happy to answer your questions.
    Ms. Norton. Thank you very much, Mr. Gispert.
    Now we have, finally, Mr. Chad Berginnis, testifying on 
behalf of the Association of State Floodplain Managers. He is a 
Senior Specialist at the Hazard Mitigation and Floodplain 
Management Michael Baker Corporation.
    Mr. Berginnis. Thank you, Madam Chairwoman.
    I am Chad Berginnis, Mitigation Policy Coordinator for the 
Association of State Floodplain Managers. I am also a former 
ASFPM Chair and a former State hazard mitigation officer in 
Ohio. So the mitigation programs that have been talked about, I 
have administered those Statewide for several years. 
Interestingly, my experience with the hazard mitigation grant 
program was that of a local project manager in the late 1990s 
for a flooded small village.
    My organization represents over 14,000 individuals working 
in all aspects of floodplain management, disasters, and 
mitigation. Along with our 29 chapters, our mission is to 
reduce flood losses and enhance the natural and beneficial 
functions of floodplains.
    I wish to share three guiding principals of ASFPM that are 
applicable to the testimony I am giving: First is the concept 
of shared responsibility among all levels of government but a 
recognition that local leadership is essential. Another is our 
belief that those who inhabit the floodplain bear some 
responsibility for their actions and their choices. Finally, we 
believe that hazard mitigation is the cornerstone of effective 
floodplain management.
    The Conference of Mayors report is a useful document 
reflecting the direct experience of mayors and local officials 
who have dealt with disasters. The ASFPM largely supports the 
spirit and intent of the recommendations, even though we may 
have some different ideas for implementation. Also, there are a 
few recommendations that we do not agree with.
    I would like to first highlight several points of 
concurrence. In certain situations, ASFPM believes that 
adjustments to cost shares for various programs can be done. 
However, we also believe States and communities must have a 
stake in the long-term recovery and resilience. Therefore, we 
cannot support full Federal funding or full cost share for any 
program, including those disaster programs.
    It is our experience that when an entity invests in its own 
sustainability it is more successful. Cost shares can be 
adjusted based on circumstances such as catastrophic events and 
maybe can be adjusted based on communities taking proactive 
mitigation measures, the concept of sliding cost shares.
    We concur with the need to expedite assistance, especially 
hazard mitigation assistance. As a colleague of mine has said, 
when dealing with flood disasters, mitigation assistance is 
needed while the carp is still flopping on the couch.
    Even though that is not the reality of mitigation programs 
today, there are many things that can be done, but we must be 
mindful that it isn't done at the expense of the first 
mitigation actions that truly occur after an event, the 
enforcement of local codes and regulations. While most of these 
are local, there may also be State and Federal standards that 
must be adhered to as well.
    We fully concur with recommendations on speeding up cost-
effectiveness determinations and streamlining environmental 
review.
    Mr. Berginnis. I do want to take a moment to discuss an 
area of significant disagreement with the report, and that is 
related to bypassing states and making local jurisdictions 
eligible grantees, especially for hazard mitigation programs. 
As I stated earlier, ASFPM believes Federal, State and local 
jurisdictions all have a role. A State has a responsibility to 
have a trained competent staff to administer these programs in 
a fair and expeditious manner. Some States live up to this 
responsibility, sadly some States do not. However, this basic 
framework has served the country well since the mitigation 
programs were established in 1988. ASFPM can provide many 
recommendations from a statutory rule and operational 
standpoint to ensure that all local jurisdictions are served 
fairly and timely within the existing framework.
    Finally, I wish to highlight some recommendations in our 
written testimony where ASFPM would like to see future Stafford 
Act reforms. The first of these is authorization of public 
assistance for local cost of damage inspection and permitting. 
Who are the first mitigators after a disaster occurs? Those are 
the local code enforcement officials. As was discussed earlier, 
ASFPM supports both the compensation of straight and overtime 
for this particular group of officials, and we can explain why 
on further questioning.
    Yet current policies specifically prohibit FEMA from 
reimbursing these officials for those activities from the 
public assistance program. There is a specific policy that 
actually prohibits this. Our second and third recommendations 
have a direct bearing on speeding up the mitigation assistance 
process, an ongoing State technical assistance program for 
mitigation and implementing the ten-year old statutory language 
for delegating State mitigation programs to capable States.
    Third, in aligning recovery in mitigation programs the cost 
shares should be the same for a particular event. There have 
been many events, for example, where public assistance is cost 
shared at 90/10 but hazard mitigation grant program is at 75/
25. This disalignment has led to much confusion in many 
different disaster scenarios.
    Finally, it is time for an independent evaluation of our 
mitigation planning efforts. In the space of 10 years 15,000 
communities have participated in mitigation planning. As plans 
are now being updated it is time review what has been done, 
identify successes and failures, best practices and identify 
what changes need to be made in planning requirements and 
future outcomes. This concludes my testimony and be happy to 
respond to any questions. Thank you.
    Ms. Norton. Well, I take your points about moving 
precipitously to change a statute that at least at the 
statutory level, at the level of the words in the statute, have 
not generally been much criticized. Of course, the 
implementation of this statute has been such a huge criticism 
on occasion, in part because FEMA reads the statute very 
narrowly, covers its you know what by doing as little as 
possible. In that regard, I asked the Mayors about, and I think 
one of you referred to dueling experts, certified local 
professional staff, where we almost do it by hand in New 
Orleans, mandated an arbitration process that has finally 
gotten, Charity Hospital, of all places, just got money out 
where we found literally billions of dollars just lying on the 
table for a while there.
    And then separately the notion of what seemed to me the 
idiocy of mandating that each party go out and find themselves 
an expert to back them up so as to take as long as they can in 
the process.
    So let me ask you, do you think the notion of requiring the 
parties to agree upon an expert in advance would be beneficial 
in promoting action and reducing delay?
    Mr. Maxwell. I will comment on that. Yes, ma'am, I think 
that would be beneficial. We do agree with the adjudication 
process.
    Ms. Norton. Did you have an answer for that, Mr. Gispert?
    Mr. Gispert. Yes. We would prefer that we have reasonable 
thinking people implementing the law and doing it up front and 
not having to cause arbitration. I am here to tell you the 
Stafford Act has been in existence for quite some time and it 
has not required major modifications to it. Just like why are 
there so many lawyers, because they can take the same simple 
English sentence and interpret it 20 different ways.
    Ms. Norton. Precisely.
    Mr. Gispert. You have the same problem when you are 
interpreting is that an eligible project or not. So I say keep 
the law the way it is, get reasonable people, do the reasonable 
thing and most people are willing to accept reasonable.
    Ms. Norton. Mr. Gispert the one thing we haven't been able 
to control is reasonable people. That is the one thing. All we 
can do is give them a law. But you have got to concede the 
structural problem of FEMA saying, you get your expert and you 
get yours and then we will decide. Now that invites conflict. 
Why should the government invite conflict? Maybe people can't 
agree upon an expert. But if the statute says to the reasonable 
extent possible you have got to do that, rather than put it 
through an even longer process that appear at least in New 
Orleans to go on forever would there be any objection at least 
to asking people in the first instance to agree upon who the 
expert would be instead of trying to decide between their 
respective experts who are instructed to disagree. Can we at 
least agree on that?
    Mr. Gispert. Barring reasonable people, I will agree with 
you that arbitration is probably a legitimate method of----
    Ms. Norton. Remember, the arbitration which came about. 
This would assume that the parties hadn't even begun to deal 
with one another. But it anticipates what we found even outside 
of New Orleans that if you tell people to go get their experts, 
they are going to go get the one with their view. All right. 
Let's begin with an agreement on who the expert will be and 
then you eliminate something. You are right about arbitration. 
We do not assume that there will be an arbitrator that would 
come in anywhere near immediately. We assume that the people 
have been at the table, and at some point, a stalemate had been 
declared and that there are people on the ground waiting for 
some money, or at least to know whether they are going to get 
any money.
    But what we found in New Orleans was that the subject was 
interminable in the worst disaster in history. Now, I agree 
with you, you can't take New Orleans as your template. We will 
never have another New Orleans. But we certainly want to learn 
from New Orleans. And we recognize that people may work these 
things out when the disaster has not been as great. But we 
would like at least FEMA not to be there. Remember now, when 
FEMA is the one I am not sure how objective an expert you got, 
FEMA is the government, FEMA's job is watch out because Norton 
is going to call you to account at a hearing, or somebody is 
going to go with a newspaper article if it looks like you gave 
too much to your respective jurisdictions and somebody is going 
to second guess you.
    So they will second guess themselves by saying the 
taxpayers don't have much to give you and my job is to guard 
our money. But if you are one of those jurisdictions with 
people hurting on the ground, your job is to interpret our 
statute to your benefit. So we are trying to cut through that. 
And we recognize that--as I say, we hope never to have another 
New Orleans, or we hope never to go through a period. And we 
don't think you even hear about the other stalemates. We just 
think that when it isn't a New Orleans, people just keep going 
at it and keep going at it until they get it straight.
    Does that save the government money or not? Obviously it 
doesn't. We end up owing more and more money as the disaster is 
lying out there. And then what we finally come up with is not 
enough and everybody hates that they didn't get enough in the 
first place.
    How many times do you keep going around that mulberry bush 
before something gets done. And so I recognize your cautious 
approach, and we are only looking for ways to make sure 
everybody is included in the statute. You know, there are 
cities and there are counties with vast amounts of land, and 
there are other people who are landlocked into rather smaller 
spaces. Making this statute conform to them all is not 
altogether easy. And that is why your balancing testimony is so 
important to us.
    Now, you heard these cities talk about how in certain 
circumstances that they should be direct grantees of FEMA for 
public assistance programs and for the hazard mitigation 
program. They argue that they are the ones on the ground who 
know it and that there are great delays. Do I take it you don't 
agree, and if so, why not? I don't know if you all have been 
State officials and that is why you don't agree or if you can 
give me some objective.
    Mr. Gispert. I will take the first crack and then I will 
pass it to our friends of the State. I have always been a local 
official, but you have, when you have disasters they normally 
affect a fairly large geographical area and you have to have 
somebody at the upper level looking upon the needs of the 
whole. Now, just because you had all the damage doesn't 
necessarily mean that you need all the hazard mitigation money. 
That money may be more useful to more people somewhere else. So 
many States have hazard mitigation plans and project lists and 
they administer them. It is very easy to look at the CNN dot-
com disaster which is where all the cameras are and ignore the 
rest of the community that is possibly affected and not let 
them get a piece or a taste of the pie, and that is what the 
State and upper officials are supposed to do.
    Ms. Norton. Do the rest of you agree with that?
    Mr. Berginnis. Madam Chairwoman I certainly would agree 
with that. And I was the State official that administered the 
programs in Ohio.
    Ms. Norton. So the State and locality come together on this 
one.
    Mr. Berginnis. Yes. And the State--let me explain just 
briefly. With the State mitigation programs the processes 
should be, at least as established by the way, should be 
largely transparent and known to the communities. States are 
required to have State mitigation plans that identify the 
processes by which they are going to coordinate with the local 
communities. In addition, after a Federal disaster declaration 
States are required to prepare an administrative plan, and that 
administrative plan details the processes and procedures by 
which those funds are going to be distributed. Those are 
documents that certainly communities can have input into. But 
the point that was stated early is well taken. Is that at the 
State level you look at the needs of the whole and you 
establish a selection process that distributes at least those 
funds in as fair of a manner as possible.
    Ms. Norton. Now, the Mayors suggest that cities should be 
able to provide assistance at least to each other directly. Do 
you believe that that assistance should also have to go through 
the State before cities can help sister cities or do you think 
the States have to decide that as well.
    Mr. Maxwell. I am mincing words here. I am trying to think 
of appropriate comments. To some degree I think you saw in 
Katrina, not necessarily with New Orleans but a lot of the 
outlying cities, cities going and helping each other. They can 
do that. However, the existing emergency management assistance 
compact is a State-to-State assistance compact. It is an 
agreement that is ratified by Congress that the States have 
agreed to. We can help--that can be utilized to share city 
resources, certainly. If a city wants to go to another city 
directly between those two, they can do that. They will not 
have the protections of the compact.
    Ms. Norton. I can see what you are saying. I can see the 
balance you are trying to strike there. Mr. Gispert, did you 
have a response?
    Mr. Gispert. As a part of the EMAC process and mutual aid 
process, all the legal issues have been resolved and agreed to; 
who handles the workmen's comp, what happens if a helping 
public employee gets injured on the job, who is going to pay 
for that? All that has been resolved. Who pays how much for the 
bulldozer, for the crews. If a city in Iowa decides to say I 
want to send somebody to help down in Tampa, Florida, and if it 
is on their own nickle, it is on their own nickle.
    And none of these issues have been resolved. There is no 
workmen's comp understanding. And what we are saying is if you 
go through processes such as EMAC and mutual aid all that is 
laid out, it is all legal, it is resolved and you get your help 
in a timely manner.
    Mr. Maxwell. And in most cases, it is entirely seamless to 
the--a city who requests assistance they don't care where they 
get assistance. They need help.
    Ms. Norton. But they need it quickly.
    Mr. Maxwell. And normally the channel that they would go to 
is turn to the State and say we need help. We can then do that 
going out to the other States who reach out to other cities and 
do it.
    Ms. Norton. I am going to ask Mr. Diaz-Balart if he has any 
questions at this time.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman, a 
couple actually, if you will allow me. One is, Mr. Gispert, you 
recommend caution, I think is the word, in considering changes 
to enhance the role of the Federal Government following a huge 
catastrophic type disaster. Can you talk a little bit about key 
issues that should be examined closely in considering an 
enhanced role for the Federal Government?
    Mr. Gispert. I am about ready to end a 32-year career at 
local government. I am going to retire soon, thank God. And 
over my career there have been events in my career what I call 
knee jerk. When something happens, somebody wants to do 
something so they end up doing something quickly and it winds 
up not being the right thing and you have to go later on and 
clean it up. The Stafford Act has been a well-established law 
that has been in existence for quite some time. It works. It 
may might need some minor peaks and tweak, but our caution to 
you is do not make major changes to you. Now, the other thing 
that happens is if you open up the Stafford Act for amendment 
there are other agencies out there that might want a piece of 
the Federal pie. They might want to say, well, you need to 
identify X, Y and Z as reimbursable that are currently not 
reimbursable, because as you know the Stafford Act is primarily 
designed for local governments and citizens to get 
reimbursement. So that is why we caution you don't knee jerk 
it, don't change something that really doesn't need changing. 
If you do do a change, make sure it is necessary and it does 
what you want it to do.
    Mr. Diaz-Balart. Thank you sir. I asked the previous panel 
a similar question about the Demolished/Rebuild program. And if 
the three of you can kind of comment, do you think FEMA should 
allow funding for Demolished/Rebuild in its mitigation 
programs? Do you all believe that FEMA already has the legal 
authority to provide funding for the Demolished/Rebuild? And 
can you also talk a little bit about how Demolished/Rebuild can 
be effective in helping to mitigate against future disasters? 
If you all would care to, and I asked a similar question to the 
previous panel, so I thought I would like to hear from you as 
well.
    Mr. Berginnis. Yes, Ranking Member Diaz-Balart. Let me 
first by saying that we view mitigation as a tool box where 
different actions are available. And through the mitigation 
programs, a community chooses the most appropriate mitigation 
actions that is based on their future goals, development 
objectives and so on and so forth. And so among those options 
that are currently available under HMGP you have acquisition 
and demolition. And as the previous panel talked a little about 
when you do acquisition land is deeded as green space.
    So there is always a tradeoff on that one. And it is 
important for folks to understand it. You have--for flood 
mitigation you have elevation in place elevating a damaged 
building higher than the flood. You have retrofitting of 
buildings, changing the systems, hardening the building or 
making it flood proof to where it is resistant to flooding. So 
Demolished/Rebuild is another tool in the tool box, and it 
focuses in on those areas where it is not cost effective to do 
an elevation in place because perhaps the building is simply 
too rickety to withstand the elevation process, it costs too 
much and it is actually more cost effective to demolish it and 
rebuild something with a similar type structure.
    So from the standpoint of it being another tool in the tool 
box, yes, we do support Demolished/Rebuild and its use. The one 
caveat that we would put on that, but as well as elevation and 
some of the other options, is that again it has to be suitable 
for the site. So something like demolish rebuild for example 
really does not make sense in areas like floodways which are 
the highest hazard high flow areas and maybe things like 
coastal high hazard zones, the velocity zones. Thank you.
    Mr. Gispert. As you know being from Florida that is going 
to be our nightmare when we take a big hit and our coastal 
communities are devastated and they are going to want to 
rebuild back and we are going to say it wasn't smart for you to 
build there originally and it is not smart for you to build 
back. So it is going to be a legal teeth gnashing and stuff 
like that. But if you are a purist you say God told you that 
you shouldn't have built there, I took your home away from you 
with a hurricane, you got a wake-up call, don't build it back. 
So I think the build and rebuild is an appropriate thing, and 
it needs to be considered when you want to get structures out 
of known areas that will always cause you problems. The flood 
zones, the coastal high hazard area, I am not looking forward 
to that day but it is going to happen.
    Mr. Maxwell. NEMA has not developed an official position on 
that but we will be happy to vet it with the membership and get 
you an answer.
    Mr. Diaz-Balart. Great. I appreciate that. And Madam 
Chairman if you would allow me one last question.
    Ms. Norton. If you would yield me on just that question, 
demolish rebuild?
    Mr. Diaz-Balart. I always yield to the Chairwoman.
    Ms. Norton. He is such a gentleman.
    Mr. Diaz-Balart. That is why we have such a great 
relationship.
    Ms. Norton. All you have to do is come down here and you 
will see it is not true. But the demolish rebuild, you heard 
the exchange between the Mayors and me, and I was trying to 
look to see if flexibility made any sense because I certainly 
don't support just building again and having the damage again.
    And Mayor Nagin did say, for example, and I asked for other 
examples and I asked him to submit examples, a hypothetical, so 
I could have some sense of whether or not this rather blanket 
language in the statute that says green space only essentially 
is appropriate for every living place in the United States, 
including big cities. I need only think about the Federal 
triangle. You can say, and it is a flood plain, and we are 
having to do the same 100-year work that you all are doing. But 
I bet you one thing. They are not going to stop having 
headquarters in the Nation's capital.
    But let me go back to really what I am after. And that is 
the example that Mayor Nagin put, that in New Orleans they 
agreed it would have to be a structure, would have to be 
absolutely stable, you couldn't build, it would be elevated, 
but he said for cars, you could have that first floor to be for 
garages and it would essentially help a city, which obviously 
before the hurricane had a hard time keeping people.
    Now, would that be an example of where some flexibility 
left to perhaps some language that would bottle it or encase it 
would be useful and would make a statute applicable to various 
areas of the United States, including areas that might be 
rationed for space.
    Mr. Gispert. We have a model in emergency management. It is 
called Semper Gumby.
    Ms. Norton. Translate that for me.
    Mr. Gispert. Always flexible. So the issue is there may be 
reasons that you want to not follow the rule and some official 
says for the good of the order we want to do this. That should 
be an option. But generally speaking--but once again, the other 
thing is he was told, you can rebuild, you just can't use HMGP 
money to do it, so he needs to go after other money to possibly 
do it if he doesn't want to get into that green space stuff. 
But flexibility is an issue that I think should be in the 
rules.
    Mr. Berginnis. Let me clarify on HMGP at least, again, 
having administered the program. HMGP inherently has a lot of 
flexibility in it. In those first few days after a disaster, 
and I did this with the City of Finley in Ohio after a massive 
flood disaster, we sat down with community leaders and we 
talked about the different options available for funding under 
HMGP.
    Only one of those being acquisition triggers the green 
space requirement. And it is one of those things where we 
needed to lay out the array of options for local leaders to 
then choose. ASFPM would find it very problematic to change the 
language that deals with green space because at the very 
beginning communities have the option of either doing a buy-out 
or doing the elevations as Mayor Nagin had indicated where you 
park the cars underneath. That is an equal and different option 
that is available under HMGP right now. Thank you.
    Mr. Maxwell. And I would just add that NEMA fully supports 
HMGP and we fully support any flexibility that you can build 
into any program.
    Ms. Norton. I am sorry, I yield back to the Ranking Member.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. I actually 
just have one more question. Do you all agree that FEMA should 
finally implement its existing authority to delegate the 
administration of HMGP to the States that meet certain 
criteria? If so how do you believe this would improve the 
process. Your thoughts on that?
    Mr. Maxwell. Yes, we would like to see the States that 
would want to do that and meet the criteria that they have that 
capability. Certainly any streamlining, any cost saving 
measures that could be put in place we would be all for.
    Mr. Gispert. If they can do the job, then they should be 
able to do it. The key criteria is can they meet the 
requirements and fulfill the requirements.
    Mr. Berginnis. Several years ago, FEMA piloted the concept 
called the managing State program. I would not call that 
delegation of the program as is required as is mentioned in the 
statute. But in the managing State concept, and we were one of 
those, once we received that designation we were able to 
process HMGP applications without the FEMA regional review. And 
that did expedite the process significantly.
    So when you have a capable State in theory delegating that 
authority to the State you eliminate one level of review and 
you would have a faster process.
    Mr. Diaz-Balart. And I do understand. In the State of 
Florida, we have had some serious delays in getting FEMA to 
move forward to the point where they have had to get extensions 
even. Not because the State wasn't doing its part, but just 
because getting through the whole FEMA process. So there is a 
consensus here that FEMA should finally go ahead and do that 
and that it would help, right?
    Mr. Berginnis. Yes.
    Mr. Diaz-Balart. And we have heard obviously that there has 
got to be criteria and that is obvious.
    Mr. Berginnis. And I am sorry, Ranking Member, if I could 
add just one more comment. Since that time FEMA has also 
developed the enhanced State mitigation plan requirement, and 
they are very high standards that a State has to pass. But you 
can be qualified as an enhanced plan State. You get more 
mitigation funding when you do that. Enhanced plan States 
should be able to qualify quite easily for a delegated State 
program. Thank you.
    Mr. Diaz-Balart. Thank you very much. And again, thank you 
Madam Chairwoman for always being very generous with me and my 
time. Thank you.
    Ms. Norton. Always Mr. Diaz-Balart. And I must say I would 
be impressed with the, I don't know, model program that you 
describe. I am--obviously the State has to have a plan and the 
State gets monitored. I do believe that where a State has shown 
they get the money out, that is important, and that it is 
closer to the ground I don't see why Washington should be put 
to the task of managing such a program.
    The fact is that we don't manage lots of programs from 
Washington. Most of the programs are managed in the States. We 
don't try to manage welfare programs for example, say a big 
program from here. We don't try to manage transportation 
programs, we don't try to manage public works programs. What do 
we know about it. We are about to do, based on a horrific 
accident here, with the metro system here where 11 people lost 
their lives, no safety regulation in the State, so how do you 
do it. There was actually a law that said you can't regulate 
safety. You regulate everything else; railroads, air travel, 
not this. And so now we have had this catastrophe and so 
everyone is looking at it now. But it is interesting how we are 
looking at it. I would like the Ranking Member to see that this 
is the administration's proposal I think takes into account how 
State administration can be not only beneficial but better.
    Essentially it says, and I am looking at this as the kind 
of model you are describing, Mr. Gispert, it says, okay, 
States, you come up with a plan for a safety regulation of your 
on transit system. Now, there are going to be Federal 
regulations because we have seen what happened, what we had 
when States had their own systems. These made you want to sob. 
They were systems where essentially there was virtually no 
staff. There was systems where there was no regulation. So they 
set up faux systems. So it said you set up your own system, 
adapt it, according to broad Federal regulations of a kind that 
I think you must be talking about, Mr. Berginnis, because they 
had to do a plan that met Federal regulations, then you manage 
it.
    Now, if you don't want to do that, the Federal Government 
says in this statute, that I guess is before our Full 
Committee, if you don't want to do that, then the Feds will 
make you conform to the statute and we will do it from 
Washington. It gives the State that wants to do it, is equipped 
to do it or the moment it gets equipped to do it, it is closer 
to the ground, it does it the way it regulates, or sorry, 
administers most problems--most programs in our country.
    So I would agree with Mr. Diaz-Balart. You have a State 
that is particularly practiced in hazard mitigation, and for 
that matter, almost everything else having to do with 
disasters. So the Committee, the Subcommittee is looking for 
that kind. We expect people to be on the ground, not where we 
are up in the stratosphere. We know where we are. And we know, 
that is why we go to areas to, in fact, find out something. If 
FEMA were, and staff reminds me in H.R. 3377, which you heard 
me refer to over and over again, because we are trying to see 
if there is anything we should do to try to perfect it even 
further, FEMA must establish criteria for State management of 
the hazard management program within 180 days. So that is 
really the answer.
    I did not know this, how specific we had been in that 
regard. It shows you that we are at one on this. Let me just 
ask you a few more questions. We have kept you a long time, but 
we have done so because just as you say watch what you wish 
for, you wish you hadn't wished you wish you hadn't done it. 
You call for something that some would consider radical, I 
think it is you, Mr. Berginnis, that the hazard management 
program should be 100 percent federally fund, it is about 75 
percent federally funded now.
    But Mr. Gispert said everybody needs some skin in the game. 
So could you all get on this the way you did on the last 
question that came before you?
    Mr. Berginnis. Actually, our position, I apologize if I 
misspoke, but I think Mr. Gispert and I do agree on the fact 
that everybody has to have skin in the game. And that even 
though there may be reasons to adjust a cost share towards 100 
percent there should never be a situation where you have a full 
100 percent.
    Ms. Norton. So you do agree?
    Mr. Berginnis. Yes.
    Ms. Norton. So the 75 percent match makes some sense to 
you?
    Mr. Gispert. We don't necessarily want to issue a rock 
statement that it has got to be 75 percent, 80 percent, 90 
percent. What we are telling you is to blanket say it is always 
100 percent will be a disincentive.
    And we think that you need to have a--there may be cases 
where the Federal Government says that should be a 90/10 
situation or it should be traditionally 75/25. There just needs 
to be something. They need to be invested in the program, 
because if they don't they will ignore it.
    Ms. Norton. Sure. Why should we put anything in it. Go to 
the Feds. And you see how small the program is. It makes us 
cry. When you see the good that it does relative to the amount 
of money we put into the program, oh my. No cost effectiveness. 
That is why we are always going back asking for more money. Let 
me ask you this, unless Mr. Maxwell had something to say on 
that. Now, the Mayors want the hazard mitigation program to be 
distributed in proportion to the damage. Now, you have 
reservations about such a system, as I understand it.
    Mr. Gispert. Yes, ma'am, I do.
    Ms. Norton. Would you explain that?
    Mr. Gispert. Once again, remember the process of the State, 
the overall plan. We have sat there and thought what happens if 
we have a major disaster, here are all the projects that 
everybody thinks they will need. And then when we see that the 
State of Florida is going to get $50 million then they go to 
that plan and they say that $50 million can be best spent on 
these projects. And it may not necessarily be focused totally 
on the ground zero of where the disaster was because everybody 
gets impacted.
    So we think it should be according to a well thought out 
plan and distribute the money most good for the most people.
    Mr. Maxwell. Also I would like to add that most of the time 
mitigation is declared for the entire disaster area or the 
entire State. So the State will look and try to coordinate the 
funds as best we can. But there are a lot of factors that go on 
with this. There is a cost share. Oftentimes, the city or 
county that was directly impacted by the disaster might not 
have the funds to match so they can't do the mitigation 
project. So there are a lot of factors in there. Each local 
entity has their own mitigation plans, their own projects that 
are delineated. So the State then can look at what is there 
ready in the disaster areas along with the rest of the State.
    Mr. Gispert. I need to correct something. In the State of 
Florida, we do take into consideration the impact of 
communities. That is a part of the idea and the thought of 
where the money is distributed. It is not the sole criteria. 
And I think the Mayors were, in essence, saying that you know 
they needed a bigger chunk of the pie, we took the hit, we 
should have got a comparable amount of money. We don't think 
that is the right way to do it.
    Ms. Norton. And of course, it is interesting that that was 
not just the New Orleans template. Mayors all seem to think 
that when the damage occurs in places, like in congested big 
cities, it is greater damage and therefore they should, that 
greater damage probably comes simply because they are more 
congested, there is more to damage in a space that is smaller.
    You say, Mr. Gispert, well, one factor should be--I guess 
the startling figure which may be due to something else coming 
out of the State of Louisiana where they had, I don't know, 57 
percent or some such number of the damage and it is a tiny 
morsel of the mitigation funds, when you see how it can become 
a gain in New Orleans and on the golf course kind of made me 
shutter, when you want to mitigate as much as possible there.
    Mr. Gispert. I did hear the mayor say that there is a lot 
of money hung up not yet distributed. He only got X amount of 
percentage of the money distributed.
    Ms. Norton. Do you think this is just a question of the 
efficiency of the States involved?
    Mr. Gispert. It could very well be ma'am.
    Ms. Norton. Because you don't think that that is 
widespread, that notion of--I asked him how come it is stuck, 
how can you unstick it. You don't think that that is more 
generally a problem since we are looking at a statute generally 
not just at one area.
    Mr. Maxwell. I think that may be a unique situation in that 
you are just seeing things like Charity Hospital being approved 
for the PA program. There are a lot of factors that are going 
on in that area.
    Mr. Berginnis. And I would agree with Mr. Maxwell on that. 
It probably is more process oriented. Those numbers were 
startling. And again, from the standpoint of having 
administered one of those programs, in a garden variety 
disaster that funding should be able to be distributed very 
quickly.
    States should have the processes to do that. Again, Katrina 
was very unique from the standpoint the massive amounts of 
funding and things that happened, but certainly process 
improvements could be made.
    Ms. Norton. Let me ask one final question, at least from my 
questions. And whether the rest of you agree with Mr. Gispert's 
testimony. He says that in Florida, Mr. Diaz-Balart, he tells 
his citizens the first 72 is on you. Now, some of us--well, 
let's take the situation I know best. It is true that when we 
heard there was a big storm coming, they cleared out all the--
you know you couldn't find a shovel, you couldn't find a loaf 
of bread. People did seem to know. You ought to know certain 
things just by living where you are.
    And apparently people knew that they better rush to the 
store, and it was a big day for every supermarket or every 
hardware store in the region. Is that what you mean or is there 
a problem for citizens being left to believe that they are on 
their own in the first 72 hours.
    Mr. Gispert. I want to give you a real good example, and 
Mr. Diaz-Balart will remember it. 2005 Hurricane Wilma hit the 
southeast coast of Florida where millions of people live. The 
storm came in off the gulf so it backdoored them. The biggest 
problem they had in reality was a total loss of power along 
that whole coast.
    The storm had not stopped blowing and those people started 
standing in line waiting for food, water and ice. And my 
question to them is where is your hurricane kit. They go, huh. 
Well, we have been preaching how long everybody should have a 
hurricane kit, and these people, thousands of people stood--you 
know the wind stopped blowing and they are waiting for food, 
water and ice.
    So you have to get a little abrupt to them and say the 
first 72 is on you. Our motto used to be we are from the 
government and we are here to help you. Well, the thing is we 
are from the government and we may not be able to help you for 
a while so you need to be able to help yourself, your family 
and your neighbors for 72 hours. And that is why we use the 
first 72 is on you.
    Mr. Diaz-Balart. If I may, Madam Chairman. What I also 
remember is that before the storm was over you had people 
asking for food, water and ice in many cases in places that you 
could just turn on the tap water. We hadn't lost water. And 
so--and I don't mean to be critical but sometimes, you know--I 
guess in the case of Florida I will tell you that sometimes we 
are a little bit victims of our own success because people 
expect, since frankly photo has its act together, that you know 
the light goes out and 20 minutes later you are going to have 
government services there saying what do you need.
    And the reality is that if a big storm comes, I don't care 
if you are Florida and you have got the best situation and the 
best prepared people in the world, the big one comes you are 
going to be on your own. And there is that balance of telling 
people, well, we have a very good system and we are working on 
that, but people need to understand that if you do have a 
problem you better be ready because, yes, we are----
    And Madam Chairwoman, thank you again because the 
Chairwoman has been there personally to see it and witnessed it 
and talked to people there and she has seen how prepared we 
are. But it doesn't matter how prepared you are. If something 
happens chances are you are not going to be able to get help. 
So in Florida we have people kind of expecting that we are 
going to be there thinking that since we got our act together 
there is never going to be a problem. That is just not the 
case.
    And I can tell you, Madam Chairwoman, that in my house, my 
household, and it all changed for me after Andrew, because 
before Andrew, Madam Chairwoman, I thought a hurricane is 
coming, big deal. After Andrew I am paranoid. And I have got 
MREs, I have got water in packets, I have food, I have 
backpacks ready to go. And God willing, I will never need them, 
and after 5 years when they go bad, before that hopefully I can 
donate them so others can use them before they go bad or 
whatever, but if we have a real problem we can't expect the 
government to be there no matter how efficient, well run and 
how good things may be.
    Mr. Maxwell. And if I could add to that I think this is an 
extremely important point. We are all in this together. It 
shouldn't be worrying about Federal Government, State 
government, local government, it is also the people. It is 
citizens, local government, State government Federal Government 
all trying to do the same thing trying to help the people. So 
we have got to have that local involvement, those citizens 
involved in their own preparations, and that just has to be 
what the system evolves to.
    Mr. Diaz-Balart. And again, I just want to reiterate 
something which I think sounds funny but it is true. People 
were waiting in line, by the way sometimes for hours, for water 
and all they had to do was go home and turn on the tap, open 
the tap.
    Mr. Gispert. Would you like to hear another funny story. I 
went down, I am from Tampa which is 250 miles away, and I went 
down to help my friend in Broward County because he had been up 
for 60 hours, and we are in his EOC. Wilma comes through, the 
storm has subsided and gone off and the people are cueing up. 
One of the local TV channels had its TV camera and there was a 
middle aged gentleman standing in line. He had a pair of khaki 
shoes on, T-shirt and one of them Australian hats flipped up 
like this. And the cameraman said, sir, how long have you been 
standing in line. He said three hours. He said what are you 
standing in line for. He says water. He says where do you live? 
He said Pembrook Pines. He said, sir, the municipal water 
system is back on line. He said, but you don't understand, I 
drink nothing but bottled water. I wouldn't lie to you sir. I 
wish I had a copy of that tape to play.
    Ms. Norton. And now we are having to try to unlearn people 
about bottled water with all of the additional problems that 
the bottles cost and with the fact that the water probably came 
from the tap anyway. I appreciate those examples. The last 
thing we want to do at any time is to foster a culture of 
dependence, particularly since ultimately we are all dependant 
upon one another. We want to foster a culture of personal 
responsibility with the government getting there as soon as it 
can to assist you in meeting your personal responsibility. I 
say that with some passion because people don't even think that 
the emergency management personnel got to get from where they 
live to how they can help you. Somehow they have been flying up 
in the stratosphere saying whatever comes, we will parachute 
down to help you. The notion of that sense of emergency 
managers, because they have such an excellent reputation, will 
be very bothersome.
    So I must say that I think that all it takes is a disaster 
like the one we just had here for people to learn and to learn 
quickly what to do. And I think you in Florida and in the other 
areas, especially you emergency management experts, have taught 
us much we need to know. I hope we don't have to experience 
anything like the kinds of disasters we have had here, let 
alone Katrina, in order to get that culture of dependence out 
of us, or this notion I only drink bottled water, you know, the 
notion that somehow we are above the ordinary amenities I think 
this recession will drive out of a lot of us when we are going 
back to basics.
    But your testimony has certainly helped us to go back to 
basics in getting balance on how we should go about any 
restructuring we do and any changes we make in the Stafford 
Act. I can't thank you enough for the testimony of all three of 
you, and especially for you suffering through our many 
questions of those who preceded you. Thank you so much for 
coming all the way to Washington to help us out. This hearing 
is adjourned.
    [Whereupon, at 4:55 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 55274.014
    
    [GRAPHIC] [TIFF OMITTED] 55274.015
    
    [GRAPHIC] [TIFF OMITTED] 55274.016
    
    [GRAPHIC] [TIFF OMITTED] 55274.017
    
    [GRAPHIC] [TIFF OMITTED] 55274.018
    
    [GRAPHIC] [TIFF OMITTED] 55274.019
    
    [GRAPHIC] [TIFF OMITTED] 55274.020
    
    [GRAPHIC] [TIFF OMITTED] 55274.021
    
    [GRAPHIC] [TIFF OMITTED] 55274.022
    
    [GRAPHIC] [TIFF OMITTED] 55274.023
    
    [GRAPHIC] [TIFF OMITTED] 55274.024
    
    [GRAPHIC] [TIFF OMITTED] 55274.025
    
    [GRAPHIC] [TIFF OMITTED] 55274.026
    
    [GRAPHIC] [TIFF OMITTED] 55274.027
    
    [GRAPHIC] [TIFF OMITTED] 55274.028
    
    [GRAPHIC] [TIFF OMITTED] 55274.029
    
    [GRAPHIC] [TIFF OMITTED] 55274.030
    
    [GRAPHIC] [TIFF OMITTED] 55274.031
    
    [GRAPHIC] [TIFF OMITTED] 55274.032
    
    [GRAPHIC] [TIFF OMITTED] 55274.033
    
    [GRAPHIC] [TIFF OMITTED] 55274.034
    
    [GRAPHIC] [TIFF OMITTED] 55274.035
    
    [GRAPHIC] [TIFF OMITTED] 55274.036
    
    [GRAPHIC] [TIFF OMITTED] 55274.037
    
    [GRAPHIC] [TIFF OMITTED] 55274.038
    
    [GRAPHIC] [TIFF OMITTED] 55274.039
    
    [GRAPHIC] [TIFF OMITTED] 55274.040
    
    [GRAPHIC] [TIFF OMITTED] 55274.041
    
    [GRAPHIC] [TIFF OMITTED] 55274.042
    
    [GRAPHIC] [TIFF OMITTED] 55274.043
    
    [GRAPHIC] [TIFF OMITTED] 55274.044
    
    [GRAPHIC] [TIFF OMITTED] 55274.045
    
    [GRAPHIC] [TIFF OMITTED] 55274.046
    
    [GRAPHIC] [TIFF OMITTED] 55274.047
    
    [GRAPHIC] [TIFF OMITTED] 55274.048
    
    [GRAPHIC] [TIFF OMITTED] 55274.049
    
    [GRAPHIC] [TIFF OMITTED] 55274.050
    
    [GRAPHIC] [TIFF OMITTED] 55274.051
    
    [GRAPHIC] [TIFF OMITTED] 55274.052
    
    [GRAPHIC] [TIFF OMITTED] 55274.053
    
    [GRAPHIC] [TIFF OMITTED] 55274.054
    
    [GRAPHIC] [TIFF OMITTED] 55274.055
    
    [GRAPHIC] [TIFF OMITTED] 55274.056
    
    [GRAPHIC] [TIFF OMITTED] 55274.057
    
    [GRAPHIC] [TIFF OMITTED] 55274.058
    
    [GRAPHIC] [TIFF OMITTED] 55274.059
    
    [GRAPHIC] [TIFF OMITTED] 55274.060
    
    [GRAPHIC] [TIFF OMITTED] 55274.061
    
    [GRAPHIC] [TIFF OMITTED] 55274.062
    
    [GRAPHIC] [TIFF OMITTED] 55274.063
    
    [GRAPHIC] [TIFF OMITTED] 55274.064
    
    [GRAPHIC] [TIFF OMITTED] 55274.065
    
    [GRAPHIC] [TIFF OMITTED] 55274.066
    
    [GRAPHIC] [TIFF OMITTED] 55274.067
    
    [GRAPHIC] [TIFF OMITTED] 55274.068
    
    [GRAPHIC] [TIFF OMITTED] 55274.069
    
    [GRAPHIC] [TIFF OMITTED] 55274.070
    
    [GRAPHIC] [TIFF OMITTED] 55274.071
    
    [GRAPHIC] [TIFF OMITTED] 55274.072
    
    [GRAPHIC] [TIFF OMITTED] 55274.073
    
    [GRAPHIC] [TIFF OMITTED] 55274.074
    
    [GRAPHIC] [TIFF OMITTED] 55274.075
    
    [GRAPHIC] [TIFF OMITTED] 55274.076
    
    [GRAPHIC] [TIFF OMITTED] 55274.077
    
    [GRAPHIC] [TIFF OMITTED] 55274.078
    
    [GRAPHIC] [TIFF OMITTED] 55274.079
    
    [GRAPHIC] [TIFF OMITTED] 55274.080
    
    [GRAPHIC] [TIFF OMITTED] 55274.081
    
    [GRAPHIC] [TIFF OMITTED] 55274.082
    
    [GRAPHIC] [TIFF OMITTED] 55274.083
    
    [GRAPHIC] [TIFF OMITTED] 55274.084
    
    [GRAPHIC] [TIFF OMITTED] 55274.085
    
    [GRAPHIC] [TIFF OMITTED] 55274.086
    
                                    

</pre></body></html>
